<html>
<title> - [H.A.S.C. No. 112-18] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2012  AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-18]
 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                   COUNTERPROLIFERATION STRATEGY AND

                     THE FISCAL YEAR 2012 NATIONAL

                      DEFENSE AUTHORIZATION BUDGET

                     REQUEST FOR THE DEFENSE THREAT

                     REDUCTION AGENCY AND CHEMICAL

                       BIOLOGICAL DEFENSE PROGRAM

                               __________

                              HEARING HELD
                             MARCH 11, 2011
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-466                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c3d4cbe4c7d1d7d0ccc1c8d48ac7cbc98a">[email&#160;protected]</a>  
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona                KATHY CASTOR, Florida
DUNCAN HUNTER, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      Jeff Cullen, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Friday, March 11, 2011, Counterproliferation Strategy and the 
  Fiscal Year 2012 National Defense Authorization Budget Request 
  for the Defense Threat Reduction Agency and Chemical Biological 
  Defense Program................................................     1

Appendix:

Friday, March 11, 2011...........................................    33
                              ----------                              

                         FRIDAY, MARCH 11, 2011
COUNTERPROLIFERATION STRATEGY AND THE FISCAL YEAR 2012 NATIONAL DEFENSE 
 AUTHORIZATION BUDGET REQUEST FOR THE DEFENSE THREAT REDUCTION AGENCY 
                AND CHEMICAL BIOLOGICAL DEFENSE PROGRAM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Handelman, Hon. Kenneth B., Acting Assistant Secretary of Defense 
  for Global Strategic Affairs, U.S. Department of Defense.......     3
Myers, Kenneth A., III, Director, Defense Threat Reduction Agency     6
Scarbrough, BG Jess A., USA, Joint Program Executive Officer for 
  Chemical and Biological Defense, Office of the Secretary of 
  Defense........................................................     7
Weber, Hon. Andrew, Assistant Secretary of Defense for Nuclear 
  and Chemical and Biological Defense Programs, U.S. Department 
  of Defense.....................................................     4

                                APPENDIX

Prepared Statements:

    Handelman, Hon. Kenneth B....................................    40
    Langevin, Hon. James R.......................................    39
    Myers, Kenneth A., III.......................................    66
    Scarbrough, BG Jess A........................................    90
    Thornberry, Hon. Mac.........................................    37
    Weber, Hon. Andrew...........................................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Franks...................................................   103

Questions Submitted by Members Post Hearing:

    Mr. Thornberry...............................................   107
    Mr. Ruppersberger............................................   110


COUNTERPROLIFERATION STRATEGY AND THE FISCAL YEAR 2012 NATIONAL DEFENSE 
 AUTHORIZATION BUDGET REQUEST FOR THE DEFENSE THREAT REDUCTION AGENCY 
                AND CHEMICAL BIOLOGICAL DEFENSE PROGRAM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                            Washington, DC, Friday, March 11, 2011.
    The subcommittee met, pursuant to call, at 12:44 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. The hearing will come to order.
    Let me thank all our witnesses and guests for their 
patience as we have had votes on the floor.
    I appreciate everybody being with us today on this hearing 
related to counterproliferation strategy as well as the 2012 
budget request for the Defense Threat Reduction Agency and the 
chemical biological defense programs.
    I think that there has been widespread agreement among 
those who have run for President and most others that the 
greatest single danger to this country's national security is a 
weapon of mass destruction, which could be detonated here on 
our shores.
    As a matter of fact, I noticed in yesterday's Washington 
Times is a press report quoting a study to Congress that says: 
While counterterrorism actions have disrupted Al Qaeda's near-
term effort to develop a sophisticated WMD [weapon of mass 
destruction] attack capability, we judge the group is still 
intent on its acquisition.
    So all of us ought to remember their intention and what 
they will do if they can get their hands on such a weapon.
    I notice that the 2010 QDR [Quadrennial Defense Review] 
says that as the ability to create and employ weapons of mass 
destruction spreads globally, so must our combined efforts to 
detect, interdict, and contain the effects of those weapons. 
And that is what this hearing is about.
    Since 2002, the government has basically had a three-prong 
strategy: Nonproliferation, counterproliferation, and 
consequence management. This hearing focuses primarily on 
counterproliferation, but it is important I think for us to 
look at the whole strategy. And I appreciate the witnesses' 
statements that have helped us do that.
    I do notice that as far as the budget goes, for 2012 for 
DTRA [the Defense Threat Reduction Agency], the request is 
about $76 million less than the 2011 request and the amount 
that this committee authorized. And for the Chemical Biological 
Defense Program, it is about $52 million less than the 2011 
request. So it does lead one to wonder, why are these accounts 
going down? Although, we all are, of course, aware of the 
budget situation the country faces.
    So, again, I appreciate our witnesses being here. Before I 
turn to them, let me turn to the ranking member for any 
comments he would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 37.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman.
    I want to likewise welcome our witnesses before the 
subcommittee today. And, Mr. Chairman, I want to thank you for 
holding this very important hearing on a clearly important 
topic to our national security. The work obviously being done 
at the Defense Threat Reduction Agency, and Chemical Biological 
Defense Program is essential to keeping the Nation secure. With 
so many other pressing things going on in the world, it can be 
often easy to forget that we face many threats around the 
world, in particular with respect to chemical, biological, 
radiological, and nuclear threats to the country.
    Likewise, so I am glad that we are focusing attention on 
the work being done at DTRA and the Chemical Biological Defense 
Program. I look forward to getting an update on the work that 
you all are doing.
    I likewise, Mr. Chairman, am concerned about the reduction 
and the decrease in the budget request for fiscal year 2012 or 
fiscal year 2011, and I would like the witnesses to delve into 
those things in particular. And then I have other questions.
    So, with that, I thank you, Mr. Chairman, for holding the 
hearing. And I look forward to the witnesses' testimony.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 39.]
    Mr. Thornberry. I thank the gentleman.
    We will now turn to our witnesses.
    We have the Honorable Kenneth B. Handelman, Acting 
Assistant Secretary of Defense for Global Strategic Affairs; 
Mr. Andrew Weber, Assistant Secretary of Defense for Nuclear 
and Chemical and Biological Defense programs; Mr. Kenneth 
Myers, Director of Defense Threat Reduction Agency; and, 
Brigadier General Jess Scarbrough, Joint Program Executive 
Officer for Chemical and Biological Defense.
    If you all could, we would appreciate summarizing your 
statements in the interest of time. And, without objection, 
your complete written statements will be made part of the 
record.
    Mr. Handelman.

   STATEMENT OF HON. KENNETH B. HANDELMAN, ACTING ASSISTANT 
    SECRETARY OF DEFENSE FOR GLOBAL STRATEGIC AFFAIRS, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Handelman. Mr. Chairman, Mr. Langevin, members of the 
subcommittee, it is an honor to testify today with three close 
colleagues on the Department's counterproliferation strategy 
and our efforts more broadly to counter the threat of weapons 
of mass destruction. I would like to focus my opening remarks 
on an area that has attracted some significant attention; that 
is DOD's [the Department of Defense's] work on biodefense.
    Now, let me be clear about the administration's WMD 
priorities overall. The President has said that the greatest 
threat to the United States is a nuclear weapon in the hands of 
a terrorist. However, the President has also given a similar 
high priority to biodefense. The December 2010 National 
Strategy for Countering Biological Threats highlighted the 
significant threat to our people, our coalition partners, and 
our forces posed by especially dangerous pathogens.
    Sometimes it is not so obvious why DOD should care so much 
about biodefense issues. Let me briefly highlight why we care, 
and very much.
    First, biodefense is not merely about the health of U.S. 
troops and their families. It is about the ability of U.S. 
troops to fight and win in an environment that might be 
compromised by diseases against which we have no protection or 
treatment.
    Second, even if U.S. Forces are prepared to fight in such 
an environment, our doctrine and our force structure require 
that we fight alongside coalition partners. If our partners are 
vulnerable to biothreats, then we can count them out of the 
fight right from the start.
    Third, biodefense is an area where we can use modest 
investments prior to a conflict to maximize our capabilities 
during a conflict. Here are some of the things we are already 
doing in this area. To limit proliferation of especially 
dangerous pathogens, we are working with partner countries in 
areas where dangerous diseases are endemic to improve 
laboratory, physical security, and security practices.
    To improve our understanding of dangerous diseases that 
could impact our troops, we are expanding our cooperative 
research projects with partner countries and leveraging the 
U.S. military's overseas lab network.
    To improve our early warning posture we are pursuing a 
disease surveillance capability that will give us a heads up 
about the origin and potency of outbreaks that could threaten 
our forces or our population.
    These are just a few examples of how DOD is trying to get 
ahead of what we believe is an underaddressed challenge. I want 
to emphasize how closely we coordinate with our colleagues in 
the public health business without getting into their business.
    We have been careful to maintain our focus on national 
security and avoid overlap with the efforts of established U.S. 
public health outreach overseas. But it is very important that 
DOD engage aggressively in this global biodefense effort. DOD 
and State are the only U.S. agencies with authority to develop 
biodefense relationships with partners around the globe in 
support of U.S. national security, and DOD, of course, has a 
special equity given how frequently and far afield we deploy 
our troops.
    Our work in this area is still in its infancy. We have a 
great partnership with other U.S. agencies, and we are learning 
important lessons. I want to leave you with two of those 
lessons as I wrap up.
    First, we have learned that, as with other weapons of mass 
destruction, threats to our forces are best addressed at the 
source in regions where dangerous diseases originate. And, 
second, we have learned that even as we carefully deconflict 
our biodefense work with the activities of our public health 
colleagues, there is really no way to draw a bright line 
between national security and public health.
    Mr. Chairman, I wanted to use my opening remarks to focus 
on DOD's biodefense activities because this is a conversation 
that we need to expand with the committee. As biological 
science becomes more accessible and borders less secure, we 
believe that this threat will only increase and DOD's 
biodefense activities will increase as well. And I look forward 
to discussing these and other issues with you today.
    [The prepared statement of Mr. Handelman can be found in 
the Appendix on page 40.]
    Mr. Thornberry. Thank you. I appreciate it.
    Mr. Weber.

STATEMENT OF HON. ANDREW WEBER, ASSISTANT SECRETARY OF DEFENSE 
FOR NUCLEAR AND CHEMICAL AND BIOLOGICAL DEFENSE PROGRAMS, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Weber. Chairman Thornberry, Ranking Member 
Langevin, and members of the subcommittee, thank you for giving 
me this opportunity to discuss with you Department of Defense 
efforts to counter weapons of mass destruction. It is an honor 
to come before you today to testify with my close colleagues.
    Our offices work to ensure the Department of Defense's 
posture to counter 21st-century WMD threats to our warfighters 
and citizens here and abroad. Accomplishing this has become 
more difficult recently due to the constraints of operating 
under a continuing resolution.
    Rapid advancements in technology and manufacturing 
techniques are making it easier for an adversary, whether state 
or nonstate, to develop biological and chemical weapons. The 
threat is real. As stated in the National Strategy for 
Countering Biological Threats, fanatics have expressed interest 
in developing and using biological weapons against us and our 
allies.
    The Chemical and Biological Defense Program provides the 
capabilities needed for a layered set of defensive measures 
against chemical, biological, radiological, and nuclear 
attacks. These integrated capabilities improve our ability to 
sense chemical and biological warfare agents, shield our 
servicemembers, shape our operations, and sustain our forces.
    One capability that is fielded now with our forces in over 
300 locations worldwide is the Joint Biological Agent 
Identification and Diagnostic System. It is capable of rapidly 
identifying multiple biological agents, such as anthrax, 
plague, and avian influenza.
    Detection and diagnostics capabilities like this play a 
large role in biosurveillance, which is critically important to 
the Department. We need early warning of a biological attack 
within minutes, not days, through a comprehensive global 
biosurveillance network. Should an attack occur, we must be 
prepared to respond.
    In last year's State of the Union address, President Obama 
directed the enhancement of the Nation's capability to develop, 
license, and procure countermeasures against both bioterrorist 
attacks and naturally occurring infectious diseases. We are 
preparing to execute a medical countermeasures initiative that 
will provide agile and flexible advanced development and 
manufacturing capabilities to protect our warfighters against 
known agents and emerging threats for which countermeasures do 
not exist.
    President Obama has stated that one of today's greatest 
dangers is nuclear terrorism. We believe Al Qaeda and their 
associates are seeking nuclear and other weapons of mass 
destruction. It is clear that they would use such weapons if 
they managed to obtain them. Our offices are the focal point 
within the Department for both maintaining a safe, secure and 
effective nuclear deterrent, and countering nuclear and weapons 
of mass destruction threats.
    In February, I visited the 341st Missile Wing at Malmstrom 
Air Force Base in Montana. I observed the execution of this 
critical deterrence mission and thanked the extraordinary 
airmen responsible for providing our Nation with this essential 
capability.
    In order to reduce the risk of emerging nuclear-armed 
adversaries, the Department of Defense is working with the 
Departments of Energy and State to implement the President's 
Global Nuclear Lockdown Initiative to secure vulnerable fissile 
materiel worldwide. We are also working to improve the Nation's 
capabilities in nuclear detection and forensics.
    To keep Congress fully informed of the U.S. Government's 
development and fielding of countering WMD capabilities, the 
Counterproliferation Program Review Committee will provide an 
updated report in May of this year. It will relate prioritized 
capability gaps to programs and resources.
    The threat of a nuclear, chemical, or biological attack on 
our troops or the homeland is real and constantly evolving. 
This means the Department of Defense must develop and implement 
agile and effective programs to counter weapons of mass 
destruction. In support of the vision of President Obama and 
Secretary Gates, the Department is working to strengthen our 
capabilities to effectively prevent, deter, defeat, and respond 
to these threats. I ask for your support of the fiscal year 
2011 appropriations bill and the President's fiscal year 2012 
budget request so that we can work to achieve these goals.
    I appreciate the opportunity you have given me to testify 
today, and would be pleased to answer any questions. Thank you.
    [The prepared statement of Secretary Weber can be found in 
the Appendix on page 55.]
    Mr. Thornberry. Thank you.
    Mr. Myers.

  STATEMENT OF KENNETH A. MYERS III, DIRECTOR, DEFENSE THREAT 
                        REDUCTION AGENCY

    Mr. Myers. Mr. Chairman, Ranking Member Langevin, and 
members of the committee, it is an honor to be here today.
    I will address the roles of the Defense Threat Reduction 
Agency and our Nation's counterproliferation and consequence 
management efforts in the fiscal year 2012 budget.
    The mission of the nearly 2,000 civilian and military 
personnel of DTRA is to reduce, eliminate, detect, and counter 
weapons of mass destruction and mitigate their effects. We 
proudly serve as the combat support agency for the WMD mission.
    I am also the Director of the U.S. Strategic Command Center 
for Combating Weapons of Mass Destruction. The center is 
responsible for the synchronization of planning across the 
combatant commands.
    The threat is very real. It is growing in scope and 
evolving in its potential applications. The presence of 
international terrorism, the proliferation of weapons know-how, 
and the emergence of infectious diseases have all changed the 
game. The consequences of an attack would cause mass 
casualties, have a crippling economic impact, and cause major 
sociological harm. Terrorists are determined to acquire WMD 
and, if successful, will use them.
    We have an increasingly effective national strategy for 
countering the threat. It harnesses expertise across the whole 
of government and the international community. The new National 
Strategy for Countering Biological Threats, the Quadrennial 
Defense Review, and the national military strategy all 
highlight the pressing need to build additional and more 
effective barriers between the threat and the American people.
    We work to reduce WMD threats at their source, detect, 
interdict and defeat them, and minimize the effects and 
consequences of possible attacks. We provide subject matter 
expertise to national, global, and battlefield levels. We 
conduct technology development and assist the warfighter with 
planning and help maintain a safe, secure, and effective U.S. 
nuclear deterrent.
    As you walk down the halls of our facilities, you see 
nuclear physicists, microbiologists, and Special Forces 
operators working together to solve complex problems. We truly 
are a unique institution. I would like to highlight some of our 
recent accomplishments.
    We successfully transitioned the Massive Ordnance 
Penetrator to the Air Force. It is a 30,000-pound penetrating 
weapon significantly more lethal and accurate than current 
weapons in the inventory to defeat hardened, deeply buried, 
potential WMD targets.
    In the past year, DTRA responded to 1,500 reach-back 
requests from the combatant commanders and the National Guard 
WMD civil support teams for subject-matter expertise. The total 
number of requests has more than tripled since 2008, and the 
product has become increasingly more complex. We provide 
support to everything from the wars in Iraq and Afghanistan to 
the Super Bowl and the State of the Union address.
    Over the last year, we have made great strides in improving 
the Department's counter-WMD campaign plan. It details what the 
Pentagon will do to address the threat over the next 5 years, 
and will have goals, tasks, and assessments that will gauge our 
progress.
    DTRA is placing great emphasis on protecting our military 
personnel against naturally occurring and manmade dangerous 
pathogens. Through the Nunn-Lugar Cooperative Biological 
Engagement Program, we are working with the Departments of 
State, Health and Human Services, and Agriculture to improve 
biosurveillance and security with new partners in Africa and 
Asia.
    In addition, through the Medical Countermeasures 
Initiative, we will safeguard our troops against disease and 
deadly pathogens. Force protection programs such as these are a 
top priority for our warfighter and for DTRA.
    DTRA is reshaping our efforts through our latest strategic 
plan. It responds to evolving threats while taking into account 
the difficult economic situation. Our plan has three goals: 
First, adapt to and shape the dynamic global security 
environment; two, provide counter-WMD capabilities to meet 
current threats and challenges; and three, institutionalize a 
whole of DTRA and whole of government approach to enhance 
mission execution through collaboration.
    Members of the subcommittee, I thank you for the invitation 
to testify on our mission and for your support of the DTRA SEC 
in prior years. I look forward to answering your questions.
    [The prepared statement of Mr. Myers can be found in the 
Appendix on page 66.]
    Mr. Thornberry. Thank you.
    General.

    STATEMENT OF BG JESS A. SCARBROUGH, USA, JOINT PROGRAM 
 EXECUTIVE OFFICER FOR CHEMICAL AND BIOLOGICAL DEFENSE, OFFICE 
                  OF THE SECRETARY OF DEFENSE

    General Scarbrough. I thank the chairman and ranking member 
for the honor of testifying on behalf of the Department of 
Defense Chemical and Biological Defense Program. This program 
provides the joint warfighter with chemical and biological 
detection and reconnaissance systems, individual and collective 
protection capabilities, decontamination products, information 
management systems, and medical countermeasures.
    In fiscal year 2010, we provided over 1 million pieces of 
integrated chemical and biological defense capability to our 
soldiers, sailors, airmen, and marines.
    Consistent with our mission to protect the joint warfighter 
and the Nation, we are tasked with the mission of developing 
and integrating biological defense technologies to enable 
biosurveillance, which includes the early warning, 
identification, and tracking of biological threats. Toward that 
end, we are collaborating with the Department of Homeland 
Security's BioWatch program to maintain a domestic capability.
    Regarding our acquisition portfolio, we are developing 
adaptable and flexible approaches to detect biological threats 
early enough to initiate a rapid and effective response as 
called for in the National Strategy for Countering Biological 
Threats.
    Improved detection and precise diagnostics are fundamental 
to biosurveillance and are key areas of our expertise in the 
Chemical and Biological Defense Program. We develop and 
integrate state-of-the-art detection and diagnostic systems to 
enable both force protection and force health protection. A new 
program start in fiscal year 2012, the Next Generation 
Diagnostic System Program will develop a family of systems that 
provide improved diagnostics capabilities across all 
operational echelons.
    Another new start in the budget request before you is the 
DOD Medical Countermeasures Initiative. Based on the 
President's request to redesign the United States medical 
countermeasures enterprise in collaboration with the Department 
of Health and Human Services, DOD plans to execute or establish 
a dedicated advanced development and flexible manufacturing 
capability for medical countermeasures. HHS [the Department of 
Health and Human Services] is focused on large-scale production 
to address the needs of the national population while we in the 
DOD are looking to address the unique needs of the joint 
warfighter.
    During early fiscal year 2012, the DOD plans to award a 
long-term contract to establish and commission this advanced 
development and manufacturing capability. This new effort is 
aligned with the DOD mission of protecting our people.
    In addition to the biological threat, the Chemical and 
Biological Defense Program is focusing on other challenges, 
such as nontraditional agents. These are chemicals and 
biochemicals reportedly researched or developed with potential 
application or intent as chemical warfare agents but which do 
not fall into the category of traditional chemical warfare 
agents. I can assure this subcommittee we are developing 
capabilities to counter this threat.
    Critical to making required investments in biosurveillance 
diagnostics, the DOD Medical Countermeasures Initiative and 
nontraditional agent defense is finding efficiencies within the 
current programs and operations. Pursuant to the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
directive for better buying power, we are integrating measures 
to ensure all of our programs are affordable and provide a 
positive on return on investment for the taxpayer.
    This subcommittee understands we face a broad array of 
threats within a changing and uncertain environment. 
Accordingly, I urge support for funding the development of 
improved chemical and biological defense capabilities as 
outlined in the fiscal year 2012 DOD budget request.
    On behalf of the men and women of the Chemical and 
Biological Defense Program, I thank this subcommittee for the 
opportunity to testify, and I look forward to our discussion.
    [The prepared statement of General Scarbrough can be found 
in the Appendix on page 90.]
    Mr. Thornberry. Thank you.
    And let me thank you all for your brevity in summarizing 
what is an important and somewhat complex topic. Let me just 
ask one question, and then I will turn it to Mr. Langevin.
    When we talk with folks--and probably for you primarily, 
Mr. Handelman--when we talk to folks about cybersecurity, they 
tell us that the numbers and the sophistication of the threat 
is growing at a very rapid rate, but our ability to deal with 
the threat is not growing as fast. So the gap between the 
problem and the solution is growing wider.
    My question for you all is, how is the gap doing between 
the proliferation in numbers and in sophistication of chemical, 
biological, and nuclear weapons around the world, and our 
nonproliferation and counterproliferation efforts to deal with 
that? Is the gap growing bigger, or are we closing in on it?
    Mr. Handelman. Mr. Chairman, it is an apt comparison. In 
the cyber world, which actually, in another hat, I share some 
responsibility for, one of the real intriguing challenges is 
that it is almost completely dual-use. Among the WMD areas, the 
three areas, nuclear, chem, and bio, bio is the one that is 
mostly dual-use. In other words, it is not strictly military.
    So, in terms of your construct of the gap, my own view is 
that we are actually doing a little bit better in the bio area 
than in the cyber area. Part of that is just because, even 
though biological science is expanding, accessibility to it is 
expanding rapidly, it is not expanding the way access to the 
Internet and computer skills is expanding.
    As a bonus item, I would say, just as a comment, that one 
of the things that keeps me up at night that I have trouble 
figuring out is the combination of threats across domains. In 
other words, the unimagined, what I haven't been able to 
imagine, combination of a bad guy who wants to somehow combine 
a biothreat with a cyber attack.
    Mr. Thornberry. Let me just ask, Mr. Myers, what is your 
opinion? Is it getting worse? Are we closing in on it, or is it 
getting further away from us?
    Mr. Myers. Mr. Chairman, I will tell you. I go to work 
every day with 2,000 people who dedicate themselves to 
eliminating that threat. To date, we have been successful. As 
you pointed out in your statement, and my colleagues have as 
well, the threat is constantly evolving, and the challenge is 
to stay ahead of it. To date, we are doing that.
    I believe every successful encounter that we have with 
states of the former Soviet Union, with our expansion into 
places in Africa, Asia and elsewhere, every new technology we 
develop, every new relationship that we create brings us closer 
to a successful in-depth defense for the American people. But 
it is a challenge every single day. To date, we have met that 
challenge, and we will continue to do so.
    Mr. Thornberry. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, again thank you for your testimony.
    If I could, Secretary Handelman, I would like to return to 
an area that I mentioned in my opening statement, and the 
chairman did as well, about the budget for fiscal year 2012. As 
you know, the pending fiscal year 2011 defense budget contains 
a significant increase in funding for our counterproliferation 
efforts, especially for DTRA, but it is decreased in the fiscal 
year 2012 proposed budget. I am sure you would agree that the 
world is not likely to be significantly safer in fiscal year 
2012 than in fiscal year 2011. And I would like you to explain 
the Department's choice to lower the spending amounts for DTRA 
and chem-bio protection efforts in fiscal year 2012.
    Mr. Handelman. Sir, with respect to the DTRA budget, as you 
may know, the budget request and the appropriated and 
authorized amount was really flat for many years. The fiscal 
year 2011 request was actually a significant ramp-up. The 
fiscal year 2012 request reflects a hard balancing of 
priorities across our whole department, decisions made at 
levels above all of us.
    I guess I am confident in the capability that that budget 
request can deliver. I would characterize it as a moderate 
ramp-down of what had been a previous ramping up. That is my 
view from the strategy and policy level. Mr. Myers has to live 
this every day as the director of the agency. He might want to 
amplify.
    Mr. Myers. Thank you.
    We have taken a number of steps over the last 6 months to 
make the agency as effective and efficient as we possibly can, 
and we found a number of areas where we could combine 
operations, lower our overhead, specifically in two to three 
different areas. We have also gone and closed down two 
facilities, offices that we had. One was in Dugway, Utah. The 
other was supporting efforts at NATO [North Atlantic Treaty 
Organization] SHAPE [Supreme Headquarters Allied Powers 
Europe]. The efforts that they were supporting will continue 
on, but we believe that we will be able to provide the same 
amount of support and expertise from our headquarters at Fort 
Belvoir than we were on site.
    Lastly, we did a strong and very strict rack and stack of 
all of our priorities, starting from the very top all the way 
to the very bottom. And those items that were at the bottom--I 
will give you one example, we have an in-house think tank that 
is called ASCO [Advanced Systems and Concepts Office]. Its job 
was to go out, do research, to find the latest thinking on 
various subjects. And we have cut back significantly in that 
arena. So savings from each of those three elements will allow 
us to continue operations, even at a lower budget level.
    General Scarbrough. Sir, if I could just add one comment as 
well. From an acquisition and a programmatic standpoint, we 
have been able to get some efficiencies by being joint. For 
example, we now deliver one ground respirator, the Joint 
Service General Purpose Mask, to all four services, the same 
protective mask, on the ground side. That has reduced some of 
our operations and support costs by being joint and delivering 
a common solution. The same thing is with our Joint Chemical 
Agent Detectors. We have been able to deliver one of those 
detectors across all of the services, thereby presenting a 
common solution which can then streamline some costs as we 
maintain that in the operational force.
    Mr. Langevin. Thank you, gentlemen.
    I have studied WMD issues and been involved with them for 
many years now, whether it is in my role in the Homeland 
Security Committee or in the Armed Services Committee or 
Intelligence Committee. I clearly think that the threat in the 
chemical, biological, radiological and nuclear threat fields 
continues to increase. We know our enemies are dedicated and 
determined. I am particularly concerned about the chem-bio and, 
of that, probably the biological threats that we face because 
of dual-use technologies, because of the knowledge that is out 
there and how that can be proliferated. What is the Department 
doing to ensure that it supports new and evolving technology, 
especially in the chem-bio protection field, as well as 
surveillance?
    Secretary Weber. First, I would like to thank this 
subcommittee's leadership in this area and your leadership and 
Chairman Thornberry's leadership in this area.
    Although the top line for the Chem-Bio Defense Program, 
from our 2011 request to our 2012 request declined $52 million, 
down from $1.578 billion, so about a 3.3 percent decline, 
within that we were able to eliminate some poorly performing 
programs and actually add two significant new programs in the 
area of biodefense. We have put more emphasis within the CB 
Defense Program on biodefense and, in particular, medical 
biodefense, because that had been underinvested in over the 
last decade.
    So we are launching in the fiscal year 2012 request a 
Medical Countermeasures Initiative that will leverage the rapid 
growth in new technologies in the biotech sector for biodefense 
purposes. And there are two sides to the advancement and spread 
of biotechnology. One is that our adversaries like Al Qaeda and 
Al Qaeda in the Arabian Peninsula in their Inspire publication 
just put out a call for microbiologists and chemists to help 
develop weapons of mass destruction. So we are very concerned 
about that.
    But we have put more focus on leveraging cutting-edge 
biotechnology to improve our biodefenses. And this is in 
partnership with other departments like Health and Human 
Services and Homeland Security. Thank you.
    Mr. Thornberry. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    There were two big spending initiatives, for lack of a 
better phrase. One that Secretary Gates said, let's find $100 
billion across DOD and redeploy that in better, more effective 
uses. The other is the $78 billion in, I guess, efficiency 
initiatives. Collectively, were you involved at all in the 
first initiative in which you were part of the $100 billion? 
And, if so, how did you redeploy those assets? And then take a 
couple seconds on each one of those, each of you.
    Mr. Myers. Yes, sir.
    The Defense Threat Reduction Agency was certainly a part of 
that process. And as I was explaining earlier, we really took 
three steps. We looked at all of the programs that we were 
running, and we tried to identify, where can we combine those 
efforts to become more efficient, provide a more integrated 
product for our customers? Where can we combine the leadership 
and support functions for these efforts? Secondly, we took a 
very long look across. We have a number of facilities----
    Mr. Conaway. Excuse me. I understand that piece. Help me 
out, where did you put the money? Or were you able to use the 
money that you found in efficiencies under that $100 billion 
umbrella, were you able to redeploy that somewhere else for 
more effective use, or that went to a pie somewhere else?
    Mr. Myers. No, sir. That was returned to the Secretary.
    Mr. Conaway. So that was collectively a loss; you just had 
to come up with things that were less priorities than others, 
and then that money went somewhere else?
    Mr. Myers. Yes, sir.
    Mr. Conaway. Then you had to come back and find $78 
billion, your share of that. Help me understand the difference 
between the two. I can understand the motivation for, if I get 
to spend it somewhere else, the motivation to find something 
and then redeploy that. That is a different motivation than I 
am just going to cut. So it appears that the $178 billion was 
asked of you just to cut and give those dollars to the 
Secretary and/or taxpayers. How did you distinguish between the 
two? Or is it just another layer further up your priority chain 
off your bottom stack that you had to go to get your part of 
the $78 billion?
    Mr. Myers. The approach we took, sir, was really across the 
board in terms of identifying just each and every single thing 
we do, how can we do it more effectively, more efficiently? So 
while they were separate efforts, we didn't really distinguish 
between them. We really saw that as an effort that had to be 
undertaken because of, obviously, the economic situation that 
we are facing. And we are not done there. We are continuing to 
look for more ways to do more with fewer funds. And it is 
across the board.
    So, sir, I don't believe--we didn't look at it that way. We 
didn't look at it as two separate things. We looked at it as an 
overall across-the-board process that we are not done yet.
    Mr. Conaway. Okay.
    Others want to enlighten us as to how that might have 
worked?
    Mr. Handelman. Sir, the organization I work in is OSD 
[Office of the Secretary of Defense] policy, so, frankly, we 
don't own a whole lot of money. Just in terms of looking across 
the whole Department and reflecting on the mission space that 
is represented here, I have to tell you, I think that the 
importance of the countering-WMD mission area to the Department 
was reflected in the fact that, by and large, if you could add 
up everything across the entire mission space, which actually 
is very difficult--it depends on how you define countering-
WMD--there actually weren't massive reductions. I think Mr. 
Weber reflected 3.3 percent----
    Mr. Conaway. Let me ask you a different way, because I am a 
little frustrated here. The $100 billion, you sent that money 
to the Secretary. Did he send any of it back across your 
spectrum?
    Secretary Weber. Within the Chemical and Biological Defense 
Program, the efficiencies that we identified were reinvested 
back into the CB Defense Program. So the answer is yes. And for 
the services, that was especially true. In terms of the big 
picture, they were able to reinvest their efficiencies in 
priority procurement areas for the warfighter.
    But the point I would like to emphasize is that the 
President's fiscal year 2012 budget request to Congress from 
this program represented today already includes a significant 
amount of belt tightening in it. And we would ask that you 
fully support the request. Now, for the fiscal year 2011 
request, which it is unfortunate that after 10 years of 
flatlining, especially for the Defense Threat Reduction Agency, 
we had succeeded in putting an 18 percent increase into the 
fiscal year 2011 request, but the effect of the continuing 
resolution is that we are actually operating significantly 
below the fiscal year 2011 request because fiscal year 2010 was 
so much lower.
    Mr. Conaway. We share your frustration operating under a CR 
for Department of Defense-wide. We understand what a wreck that 
is. Any help you can give us with the good folks on the other 
end of the building would be helpful. I yield back.
    Mr. Thornberry. I thank the gentleman.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you all for 
being here.
    I think, Mr. Myers, you spoke of one of the strategic 
goals, the whole of DTRA approach. And we kind of throw around 
whole-of-government approaches a lot, too, and I think from 
many of our efforts, it is easier said than done. So could you 
tell me, where do you see some of the blocks in that? And it is 
not so much funding, right? It is more culture? Or what is it 
that you see, and how do you really see that making a 
difference?
    I know that you have spoken of the jointness, and that is 
an important part of this, I think. But could you speak a 
little bit more to that and how we ought to be thinking and 
framing that?
    Mr. Myers. Certainly. Thank you.
    When I was speaking of the whole of DTRA approach, I 
mentioned also that we are a pretty unique organization. We 
have a full 24/7, 365-days-a-year operation, capability, that 
we run, as well as research and development. So we really have 
two parallel processes. And my main goal at DTRA is to make 
sure that the research and development is fully supporting the 
operations and vice versa. We must work as one, as one entity, 
one unit, because we are the WMD.
    Mrs. Davis. Where is the biggest disconnect in that?
    Mr. Myers. I don't believe I could say or identify one 
specific thing. But let me give you a potential example. Arms 
control inspections: The operational side of DTRA does the 
inspections, and we also host the inspectors that are doing 
inspections. On our research and development side, we are 
developing the technologies to verify arms control commitments. 
We must make sure that the equipment that we are producing in 
our research and development side fits the needs and the 
constraints and the conditions that our inspectors are going to 
have to operate in. So we need to make sure that the equipment 
is rugged; it can move long distances and be strapped to 
somebody's back; come off on site and work exactly as 
advertised. So we need to make sure that those things are all 
working together as one with one common picture. And we have 
made a lot of progress in that area.
    On the whole of government, I would say to you that we have 
worked extremely hard on that, specifically with our friends at 
the NNSA [National Nuclear Security Administration], the 
Department of Energy. The three of us just participated in what 
we call the bridge meeting. It is DTRA, policy, NCB [Nuclear, 
Chemical, and Biological Defense Programs] and NNSA all sitting 
down identifying where we are working in similar areas and 
fully coordinating, making sure there aren't gaps, making sure 
there aren't overlaps, making sure that the communication is 
there. Not only at the strategic level, if you will, but at the 
action officer level, that the contracts that we are letting in 
certain areas are meeting it, not overlapping and not leaving 
gaps.
    Similarly, a couple of months back, Mr. Handelman and I 
spent an afternoon at the Department of State making sure that 
our biological engagement efforts were completely in synch, 
completely synchronized with the work that the Department of 
State and HHS do in those areas.
    I think those would probably be the best examples I could 
give you.
    Mrs. Davis. Mr. Weber.
    Secretary Weber. If I could please just add to that. 
Countering weapons of mass destruction by its very nature is a 
cross-cutting issue, interagency and globally. So this presents 
a challenge within the Department, within the U.S. Government. 
Also, within the Congress, there are so many committees that 
have jurisdiction in this area, as Ranking Member Langevin 
mentioned the Homeland Security piece. And so leadership from 
us within the Department, from your subcommittee and committee 
is critically important. And I will just give one little 
example.
    Mrs. Davis. And we know we don't make it easy.
    Secretary Weber. Well, we really need to work together on 
this, and we are committed to working with you on this. But 
just one example, biosurveillance: There is a very small 
program that the Centers for Disease Control executes called 
the Global Disease Detection and Response Program. It is 
critical to our national security. But because it is over in 
CDC [the Centers for Disease Control], it gets very little 
funding. These are the types of cross-cutting issues.
    But I will say that although it is difficult, under this 
administration--and I have served in public service for 26 
years--I have never seen better leadership from the WMD 
coordinator's office, from the counterterrorism coordinator's 
office, and interagency cooperation. We have an excellent team 
that works across agencies, whether it be at the Department of 
Homeland Security, Department of Health and Human Services, or 
the Department of Energy or State.
    Mrs. Davis. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you gentlemen for being here. I appreciate 
you keeping watch on behalf of all of us.
    Secretary Weber, I wanted to address my first question to 
you. I know that many have already expressed a concern about 
the aftermath of a chemical or biological or radiological 
attack, and I share that concern. But it occurs to me for many 
reasons that with the terrorist threat, it seems to me that the 
nuclear threat is one that they would most like to affect if 
they could, something about the psychology of it I am afraid.
    With that in mind, I am concerned about the potential, sort 
of the ultimate asymmetric weapon that they might use if they 
had one warhead and some ability to put it above our country 
and launch an EMP [electromagnetic pulse] attack on our 
country. And I know that that is something that has grown to be 
more and more aware on the part of many of us.
    But I guess I would like to know, in light of the potential 
of an EMP attack leaving us with a severely damaged grid and 
without electrical power for an extended period of time, what 
is the strategy to redress a scenario of Americans without 
power for an extended period of time?
    Secretary Weber. Well, preventing terrorist use of an 
improvised nuclear device is our number one priority. The 
hardening against EMP attacks is also a priority for the 
Department of Defense and other areas. And we work with 
leadership from DTRA in hardening. This year we did testing at 
Pax River, EMP testing on the E4B aircraft, and in the coming 
year we will be testing the B2 aircraft. So we have significant 
expertise in this area.
    And although the domestic power grid is not the primary 
responsibility of the Department of Defense, we are lending our 
expertise in this area to the Department of Homeland Security. 
And I would ask my colleague Ken Myers how DTRA contributes to 
this effort.
    Mr. Myers. Thank you.
    DTRA is the technical lead within DOD for the EMP 
challenge. We are involved in technology development, technical 
assessments, technical assistance, and we develop the standards 
by which we judge our ability to withstand an EMP attack or 
situation.
    As Mr. Weber said, we are not the lead, but we have 
provided specific technical assistance to our interagency 
partners on exactly the type of threat that you have identified 
there.
    We continue to work, again, as an interagency process, 
bringing those skill sets that we have to bear to the EMP 
threat on specifically the grid, as you mentioned.
    Mr. Franks. Well, thank you, Mr. Myers.
    I am hoping that perhaps you might take a look at the 
Shield Act designed to ameliorate the danger of an EMP attack 
or, for that matter, a geomagnetic storm, which is certainly an 
inevitable reality at some point. But for the purposes of this 
committee, the EMP application is the most significant.
    I have sponsored that bill and a number of members of this 
committee are cosponsoring it. We would love to have your input 
on it because it is something that, from my perspective, it 
represents a real opportunity for terrorists to do us a 
catastrophic harm. And it is one of those things that is 
difficult sometimes to articulate without seeming to employ 
hyperbole, but it is, as you know, a very real threat, and it 
is something that I am afraid that there is still a fundamental 
lack of awareness of, and I am hoping that you folks will keep 
an eye on it. I would love to have your response on the Shield 
Act.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Franks. And with that, Mr. Chairman, I am going to I 
yield back. Thank you, sir.
    Mr. Thornberry. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    It pains me that during our consideration of the 2011 
budget, Congress degenerated into the politics of ``just say 
no.'' And as a result, or as one of the results, DTRA's budget, 
which had been upped 18 percent, with good reason, ended up 
remaining at 2010 levels. So it didn't get the bump that was 
justified, apparently, and now, due to political realities, a 
movement to reduce the 2011 proposed level of funding downward. 
This comes at a time when the detonation of a nuclear device or 
the release of a chemical or biological agent on American soil 
coupled with a coordinated cyber attack, it could have--it 
just, the consequences are unimaginable. And that threat is 
certainly a foreseeable event.
    And this is a clear example of politics putting the people 
of the Nation at risk, and we are further hurting ourselves by 
funding the government in 2-week increments. And we just 
cannot, as much as this committee is bipartisan, we cannot fail 
to look at the results of our overall political strategies in 
this country, which have gotten into just which party is going 
to be in control as opposed to what is best for this Nation.
    Mr. Myers, I think our annual budget or your annual budget 
is about worth 1 week of fighting in the war in Afghanistan. 
And I have heard you say that you have refigured your 
operations; your think tank you dismantled? Is that basic 
research? How do you compensate for the dismantling of your 
think tank? And also, I would like to know if the likelihood of 
a state or nonstate actor could detonate a nuclear device or a 
chemical or biological event on U.S. soil? Is the likelihood of 
that lower or higher than it was 10 years ago?
    Mr. Myers. Thank you, sir.
    On the first step, when we were talking about ASCO, ASCO 
did not do basic research. That was done at our research and 
development enterprise at the agency. ASCO was responsible for 
funding think tank research and efforts such as that, 
multilateral dialogues and things such as that. Those efforts 
will continue. The funding stream will still be there. The 
infrastructure that surrounded it will be cut back, and we--I 
guess, as I said, we have reprioritized those billets to our 
highest priorities. So for the foreseeable future, those 
efforts will continue. But we have been able to do them in a 
much more efficient and a much more effective manner.
    Secondly, with regard to your second question, from my 
perspective, the number one threat, the threat that, as we 
always say, keeps us up at night is the intersection of the 
weapons and the materials and the know-how of mass destruction 
and terrorist groups. That is an extremely daunting task, both 
in terms of detecting, interdicting, stopping as well as 
deterring. So I would answer the question that way.
    Mr. Johnson. Thank you.
    Mr. Thornberry. I thank the gentleman.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    And I appreciate the panel being with us today, and I am 
learning from your testimony. Thank you very much.
    I would like to follow up on some of the points that Mrs. 
Davis I think was bringing to the fore, concerns I have with 
regard to our whole-of-government approach and particularly how 
we streamline command-and-control work requirements and field 
those requirements.
    So why don't we begin with General Scarbrough. And I am 
interested to know both in terms of your agency, and then if 
you could comment on across the spectrum of how we defend 
ourselves from chemical and biological agents, the 
interactivity and command-and-control relationship between your 
organization, the Department of Defense, the Department of 
Homeland Security, the Northern Command. And as you are working 
in your response, I am interested in particularly, who 
identifies requirements, and how do you prioritize those 
requirements? And then if you could speak to RAID [Rapid 
Assessment and Initial Detection] teams, the RAID teams at the 
state level in terms of their command and control, state 
adjutant generals, State Department of Homeland Security, 
Federal Department of Homeland Security, and Department of 
Defense.
    General Scarbrough. Yes, sir. Thank you very much. I 
appreciate the opportunity to address those questions.
    First, with respect to interagency coordination 
strategically, my particular organization and the Chem-Bio 
Defense Program work very closely with the Department of 
Homeland Security in the area of BioWatch and biomonitoring. 
This is an entity that the Department of Homeland Security has 
put in a command and controlled aspect that they have put in 30 
major urban areas.
    Mr. Gibson. Can you operationally define ``work closely''? 
I mean, you have working groups? Is there like a battle rhythm 
that you go through? What do you mean by that?
    General Scarbrough. Yes, sir. We do have working groups, 
and we also have interagency agreements that define roles and 
responsibilities of how we move forward.
    At the same time, we take some of those particular areas 
that the BioWatch program is doing and we put it on some of our 
major installations, and those installations are obviously 
prioritized by the threat. Case in point, Andrews Air Force 
Base is one; some of the other installations in some major 
urban areas.
    With respect to Department of Health and Human Services, we 
work very closely with them, as I have a medical countermeasure 
portfolio, and I deliver or I bring certain vaccines, like 
anthrax and smallpox, to FDA [the Food and Drug Administration] 
approval. At the same time, we work with DHHS as they manage 
the Strategic National Stockpile. So the services draw on that 
capability based on the needs that they have and the 
requirements that they have wherever they go throughout the 
entire world.
    With respect to requirements. With respect to requirements, 
we work very closely with the Joint Staff. They identify, with 
the services, the gaps and the requirements. They also take 
into account what Mr. Weber was talking about, national 
priorities. But at the same time, they look at their--each 
service--particular areas that they would like for us to 
deliver to them based on their mission sets.
    With respect to command and control, I would offer one of 
the things that I am trying to do within my particular 
organization and within the CBDP [Chemical and Biological 
Defense Programs] portfolio and have been working very closely 
with Mr. Myers and DTRA on this, is to develop an integrated 
holistic solution set for the warfighter. Basically, in the 
area of biosurveillance, I have multiple programs that I 
deliver that meet that particular integrated concept in the 
area of detection, in the areas of diagnostics, and in the 
areas of information management. What we want to do is we want 
to bring those all together, deliver that to the warfighter, so 
the commander can make measured responses quickly in any type 
of WMD incident.
    Mr. Gibson. In terms of fielding the joint alarm, do you 
get requests for fielding from the Department of Homeland 
Security for some of their subordinate organizations?
    General Scarbrough. Sir, we work very closely with the 
Department of Homeland Security, and we would trade. But, for 
example, I would deliver capability to the National Guard, and 
then the National Guard has a role that they work very closely 
with NORTHCOM [United States Northern Command] in the area of 
consequence management. So some of my capabilities, I would say 
a lot of my capabilities are dual-use, both for the warfighter 
but yet at the same time can help the National Guard and be 
defense in depth to the first responders under the homeland 
defense with NORTHCOM.
    Mr. Gibson. Well, thank you very much. I had further 
interest, but I think in the interest of yielding back here, I 
will just say that the whole-of-government approach and who is 
in charge and how the Department of Defense works with the 
Department of Homeland Security and all the subordinate 
agencies is something of concern to me, and I look to explore 
that in future opportunities.
    Thank you very much, Mr. Chairman.
    Mr. Thornberry. Thank you.
    It is of interest to me as well.
    Ms. Castor.
    Mrs. Castor. Thank you much.
    And welcome, gentlemen. I wanted to start by complimenting 
the Obama administration and all of you and everyone on your 
team for the progress made over the past year on 
nonproliferation, and I look forward to fruits from your 
further efforts as well.
    I am interested in some of the biodefense detection and 
diagnostic tools that you have, particularly the Joint 
Biological Agent Identification and Diagnostic System. Can you 
discuss the research and development and acquisition? You say 
you have 300 in various locations. I have seen some research 
devices back home in Florida that may be similar on detection 
of disease and diagnostics. But are these efforts, are most of 
the efforts coming from the private sector? Or are you all in 
the lead, or are you giving direction?
    Then with the FDA approvals on some of the things you are 
doing, I know that the underfunding of that review process is a 
problem for the private sector. Does that hamper what you all 
want to accomplish?
    And then, could you also highlight to some of the next-
generation detection and diagnostic tools that you are working 
on?
    General Scarbrough. Yes, ma'am. Thank you.
    The first one, when we talk about diagnostics, the Joint 
Biological Agent Identification and Diagnostic System was a 
requirement that was levied onto us by the services so they can 
increase their diagnostics and surveillance activities globally 
throughout the world.
    I work very closely on the science and technology and the 
research development side with Mr. Myers and his office, 
because they do the joint science and technology for the 
Chemical and Biological Defense Program. At the same time, what 
we are doing with the diagnostics program is that we have FDA-
approved assays in there that can detect plague, tularemia, 
avian flu. At the same time, we have 70 prepositioned 
emergency-use authorizations for multiple influenza or bio-
incidents that could be dropped immediately within the FDA in 
case we have a national emergency. We have to get those 
licensed by the FDA.
    On the next-generation diagnostics, what we are looking 
there is providing a capability on the back end that can tie 
into an information management system. JBAIDS [the Joint 
Biological Agent Identification and Diagnostic System] kind of 
stands on its own; that program stands on its own. But what we 
would like to do is now tie it into an information management 
system so we can get into command and control and things of 
that nature.
    Mrs. Castor. Do the rest have another brief answer? Because 
I want to try to get one more question.
    Secretary Weber. I would just add quickly that time is 
everything in biodefense. So to the extent that we can improve 
our early warning and detection capabilities and have rapid 
accurate diagnostics, and then if we detect an event, delivery 
of medical products quickly, we will save lives. So it is an 
area we are going to be putting a lot of increased investments 
into.
    Mrs. Castor. Let me ask one other quick question.
    Director Myers, do the current events in the Middle East, 
have they informed anything new in what you are doing? Has 
CENTCOM [United States Central Command] given you additional 
requests for support?
    Mr. Myers. We provide support to the combatant commands on 
a constant continual basis. As I laid out in my opening 
statement, in terms of the reach-back, it is almost a 
continuous conversation and sharing of information and 
expertise. We do have significant subject-matter expertise that 
they reach back to us to identify in terms of how to plan, how 
to prioritize and the like. And that is all ongoing and 
continual. That is probably as far as I would like to go in 
this forum.
    Mrs. Castor. Thank you.
    Mr. Thornberry. Thank you.
    Mr. West.
    Mr. West. Well, thank you, Mr. Chairman, Mr. Ranking 
Member.
    Of course, one of the great things having a name that 
starts with a W, you are always last. But it really is an honor 
to be here with each and every one of you today. And 3 weeks 
ago I had the opportunity to go down and have a nice visit with 
U.S. SOUTHCOM [United States Southern Command], and then also I 
had an office call with the CGF [Commander Ground Forces] 
SOUTHCOM and CGF NORTHCOM. Very concerned, because we know that 
in the SOUTHCOM AOR [Area of Responsibility], Hezbollah has a 
footprint; Iran has a footprint as well. And some of the recent 
developments that we have seen coming out of there, these mini 
submersibles. I believe one was recently discovered in the last 
3 or so weeks. Very hard to detect. And then also, of course, 
we have a very porous border down South. And if you go to the 
Border Patrol Web site, you have a category called OTMs. OTM 
stands for ``other than Mexicans,'' and I think you know where 
we are going with this.
    I just want to know, how is the agency working with 
SOUTHCOM and NORTHCOM? Because I really believe we have a soft 
underbelly. Right now it could be drugs coming up in these mini 
submersibles, but the next thing you know, we have some of 
these nontraditional agents or some other type of weapons of 
mass destruction. So what are your resources that you have down 
there to cover that SOUTHCOM AOR and then, of course, as it 
transitions to NORTHCOM and into the continental United States? 
Thank you.
    Mr. Myers. Thank you, sir.
    Our support to SOUTHCOM is robust. We have a number of what 
we call LNOs [Liaison Officers] that are based at SOUTHCOM to 
facilitate the coordination and communication. We do work with 
them on a number of different fronts. One of the areas that is 
getting a lot of attention is proliferation prevention, as you 
point out. You know, whether it is a counternarcotic issue or 
whether it is a counterproliferation issue, whether it is a 
human-trafficking issue, very often the technologies that are 
used for one have applicability to all. So we are again trying 
to maximize the leverage we have on all the different efforts 
that are under way.
    In our research and development programs, we also spend an 
awful lot of time working with our interagency partners on 
detecting tunnels, just as we do in terms of hard deeply buried 
targets. Obviously, slightly different skill sets are brought 
to bear on each. But it is something that we are working on. It 
is something that we communicate and we collaborate and we 
share lessons learned, experience and expertise. And perhaps 
most importantly, we share the products. If our research and 
development organization develops a tool that works for 
counter-WMD, we want to share it across the board to get the 
maximum impact from that taxpayer investment. And to date, we 
are doing that today with a number of technologies and look 
forward to continuing.
    Secretary Weber. If I could please just briefly add to 
that. These are all global problems, and we have to work with 
our international partners, because the weakest link is the one 
that is going to come back to bite us. So we are increasing 
cooperation with all of the geographic combatant commands to 
build partner capacity for countering weapons of mass 
destruction. And this is a little bit of a different focus. It 
is not always military forces that are the leads in these 
governments, as we know from counterterrorism and counterdrug.
    So this is an area where we are increasing our investment. 
But I think it is vitally important that we work around the 
world to build capacities to prevent and prepare for and 
respond to countering potential weapons of mass destruction.
    General Scarbrough. Sir, if I could just add one other 
note. Important to all this tactically and programmatically is 
to get feedback from the field. So we have a joint acquisition 
chemical and biological, radiological, nuclear knowledge 
management system that allows soldiers to give us immediate 
feedback on their capabilities as they support the COCOMS 
[combatant commanders].
    This is an invaluable tool, as you can imagine, because the 
bottom line is we want to make sure we are giving them good 
equipment that is effective and combat-ready. And at the same 
time, tactically, I do do and conduct joint quarterly equipment 
readiness reviews, where the services as well as the enterprise 
come in and we talk about some of their issues as we work 
together as a team.
    Mr. West. Thank you, Mr. Chairman.
    I yield back.
    Mr. Thornberry. Thank you.
    Let me--I don't know to whom to direct this, so whoever 
makes it. My impression is that there is not a uniform 
definition across the U.S. Government on WMD. I was thinking 
about it a while ago, Mr. Langevin's question. He mentioned 
radiological, but often that is not included with what one 
hears.
    And I guess my question is, does it matter that there is 
not a uniform definition of what is included in a weapon of 
mass destruction? And in your all's work day to day, does that 
create impediments? Should there be some standardization, and 
should radiological weapons be included in it?
    Mr. Handelman. Sir, perhaps I will take the first stab. I 
think your observation is trenchant. But when I look at what we 
do on a day-to-day basis, I can't recall an instance or some 
situation where the admitted flexibility of the definition has 
been an impediment to our work. I think, to some extent, this 
is like obscenity. You know, when we are dealing with uranium 
of a certain level of enrichment or a certain type of pathogen, 
we know how to prioritize it. The radiological threat I think 
is certainly different than a full-up nuclear weapon. But it is 
certainly within the broad ambit of what we work on and what we 
think about it. Because one might look at an RDD [radiological 
dispersal device] as not your stereotypical WMD, it doesn't 
mean that it is not part of our planning or our thinking. I am 
not sure if my colleagues would want to amplify.
    Mr. Myers. The definition of weapons of mass destruction in 
a lot of ways are defined by some of the international 
agreements that we are a party to. You know, one of the 
examples that comes to mind is the Chemical Weapons Convention, 
and in the Chemical Weapons Convention, you have a number of 
different schedules: Schedule I being an actual weapon; 
Schedule II being a direct precursor; Schedule III perhaps 
being a more distant precursor.
    And as Mr. Handelman was saying, identifying where the 
threat stops or where it begins is often difficult. And that is 
why, specifically in the nuclear and radiological area, the 
communication in terms of the types of expertise different 
departments and agencies bring to bear on this threat is 
critically important. Obviously, most of our work, most of the 
work that the Defense Threat Reduction Agency has done in the 
past has really been weapons-focused. I mean, implementation of 
arms control agreements and things such as that. Our colleagues 
at the NNSA have an awful lot of experience in the nuclear 
materials and the radiological sources and things such as that. 
But from our perspective, we really look at WMD as chemical, 
biological, radiological, and nuclear. And we--I think that is 
a pretty common understanding if it is not specifically written 
down in law.
    Mr. Thornberry. And we are preparing for a radiological 
weapon just as we prepare for a chemical or biological weapon?
    Mr. Myers. Yes, sir. In fact, there are a number of 
programs that our partners at the NNSA run specifically are 
focused on identifying radiological threats and sources and 
materials, and collecting those up and bringing them back into 
safekeeping. We have a role as well.
    Mr. Thornberry. And I presume also consequence management, 
which is going to be a completely different sort of thing than 
chem-bio.
    Let me turn, if I could, to the Medical Countermeasures 
Initiative. I am interested in exactly what gap this initiative 
is designed to fill and how it differs from other activities, 
both within this Department and other departments. And let me 
give you just a little bit of background.
    GAO [the Government Accountability Office] came out with a 
report recently that said the Federal Government lacks 
strategic oversight mechanisms and international and 
interagency efforts in the area of biodefense and 
biosurveillance; that our efforts are fragmented; and some of 
these programs were in its report about duplicative programs 
that got so much attention a week or two ago. So, on one hand, 
you have got GAO saying we are scattered all over the place. 
Then you all come and propose a new program in that very area. 
So I need some help in bringing this together, if you please.
    Secretary Weber. Let me start answering that. The H1N1 
pandemic, it exposed a national gap, a vulnerability. It took 
us 8 months to deliver a vaccine to our public. You may recall 
the long lines. And so we need and the President has really 
taken a lead on this and been personally involved in building a 
concerted national approach to creating a capability for agile, 
flexible development, enhanced development, and manufacturing 
of medical countermeasures. And the Department of Defense has 
to contribute to that, because whether it is a member of our 
Armed Forces in the field deployed or whether it is a citizen 
on the street, the same FDA-approved medical countermeasures 
are required to save lives in the event of a bio-attack.
    The GAO report I believe is in a little bit of a time warp 
because last year, Secretary of Health and Human Services 
Sebelius led a review of the medical countermeasures 
enterprise. And as DOD, we participate in the biodefense 
countermeasures enterprise, and we were part of that review. 
The report itself had some recommendations, and with strong 
leadership from the White House, we are implementing those 
recommendations.
    In terms of the gaps that it is meant to address, there are 
infectious diseases for which we have no vaccines or effective 
antimicrobial drugs or antiviral drugs. So we need to fill 
those gaps. Again, whether it is in Northeast Asia or here in 
the homeland, we can't afford to have it take 15 years to 
develop a vaccine against a particular drug.
    DOD is also very, and has been since the late 1990s, very 
concerned about the potential for bio-engineered threats, and 
that is why we are exploring some of these platform 
technologies that could be multi-use against the unknown threat 
that would give us an ability to quickly characterize a 
pathogen and then develop a countermeasure once we have been 
able to characterize that.
    And then a specific example I will cite is during the H1N1 
pandemic, we did a live-fire exercise with an antiviral 
capability that we had developed through our Transformational 
Medical Technologies Initiative. We obtained a sample of the 
H1N1 strain, and within 14 days, we were able to produce a new 
antiviral drug targeted at that particular strain. And then we 
conducted testing in ferrets, and it had better efficacy than 
Tamiflu, and that particular effort has now resulted in an IND 
[Investigational New Drug] drug candidate that General 
Scarbrough through his program is pursuing advanced development 
of.
    Mr. Thornberry. Well, I think I want to learn more about 
it. I am concerned that too many medical issues have been put 
over on DOD, largely as a result of Congress. And I do 
appreciate the fact that it is not easy to draw a line between 
what sort of infectious disease scenario could be a matter for 
the Department of Defense and what should be CDC, Department of 
Health and Human Services, and others. I just, again, want to 
understand the issue about duplication and coordination, which 
you may well be right, the administration may be ahead of GAO, 
but also the proper role of DOD in doing certain things in the 
medical area. Because I think, my own view is that it has 
shifted probably outside of scope.
    Mr. Weber, let me stick with you and ask another question. 
In the 2010 Defense Authorization Act, the House report 
proposed disestablishing the Counterproliferation Program 
Review Committee, and I believe the Department of Defense was 
okay with that. Now, it got dropped in conference, so it did 
not make it into law. But I still think it is worth asking, 
what are they doing now? And how, in the various 
reorganizations, have other entities taken over some of that 
coordinating function?
    Secretary Weber. Well, since the requirement was not 
dropped, we will deliver a report to you in May of this year. 
And based on some of the GAO comments, we hope it will be a 
more useful and effective report in that it will not just track 
the budget request but also the actual appropriations and 
expenditures.
    The leadership has really changed with the filling of the 
position of a WMD coordinator at the White House. Gary Samore 
and his team have done an excellent job, and also, on the 
homeland security side, under John Brennan's leadership, of 
coordinating these efforts. And I think that is something that 
didn't happen as effectively before that position was 
established and filled.
    So the CPRC [Counterproliferation Program Review Committee] 
is a useful venue. In fact, it is meeting this afternoon at the 
Pentagon, and we have representatives from the Department of 
Energy, State, Homeland Security, and the Office of the 
Director of National Intelligence and others participating in 
that. So it is useful, and we hope to make the report this year 
more useful. And we hope to use it to better align our 
resources and investments against gaps.
    Mr. Thornberry. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    For the panel, the last question that I have, in the range 
of threats that we face from nuclear, radiological, chemical, 
or biological, obviously the consequences of such an attack 
would be devastating. Worst-case scenario likely is that of a 
detonation of a nuclear device. Results would be, obviously, 
the damage would be catastrophic and loss of life. But not to 
be overlooked and perhaps almost, if not equally, devastating 
would be that of a chemical or biological attack. The thing 
that concerns me the most is a biological attack. With nuclear, 
Mother Nature didn't make it easy to make highly-enriched 
uranium or weapons-grade plutonium, and in many cases, it is 
very difficult for terrorists to get their hands on it. If they 
stole it, at this point, it would take a nation-state to make 
the nuclear fuel. But that is not like the chemical or 
biological weapons. And the thing that bothers me the most, of 
course, is if they can develop a biological weapon and they can 
disburse it, they can do it again and again and again.
    My question is, particularly on anthrax, which is a highly 
likely biological agent that they would--terrorists would 
develop and use, how close are we to developing the next-
generation effective antidote for an anthrax attack and 
biological agent? And also, tell me about where we are in terms 
of surveillance. Right now, our surveillance capabilities are 
really lacking in many ways, very human dependent, human 
interactive. It requires a few days before we actually test and 
then do the analysis and get the results of the biological 
tests. What we really need is real-time surveillance. How close 
are we to having a real-time nonhuman interactive surveillance 
system deployed?
    Mr. Handelman. Let me take a crack briefly at the second 
part of your question, the surveillance piece. And I will focus 
on one aspect of it.
    To have the surveillance system of ultimate elegance, we 
are some time off. But I think we are a lot further ahead in 
our efforts than we were just a few years ago to sort of move 
that surveillance system farther away from our borders, to move 
our defensive perimeter as far out as we can. We are starting 
to build new relationships in Africa. We just did a trip with 
Senator Lugar to establish some cooperative relationships in 
some of those countries last fall, and we will be looking to 
build similar relationships in Southeast Asia soon, I hope. 
There is a long way to go, and it is labor-intensive.
    Let me turn to my other colleagues on the antidote piece.
    Secretary Weber. Secretary Danzig has written on this 
reload problem that you described, because an improvised 
nuclear device would probably be a one-time event because of 
the finite supply of fissile materiel. But with bio, it is 
different. There could be a capability, if you can launch one 
attack, that you could launch multiple attacks.
    We have looked at some of the historical examples of 
biological attacks. One in particular, the Aum Shinrikyo, is 
well known for its attack with sarin gas on the Tokyo metro, 
but they also launched two attacks using anthrax. And the only 
reason those two attacks failed was because they had not 
acquired the correct virulent strain of anthrax. So that tells 
me that we need to focus and continue to focus more efforts on 
keeping virulent strains of Bacillus anthracis out of the hands 
of terrorist groups. And we are doing that globally through the 
Nunn-Lugar program, by consolidating and securing pathogen 
collections around the world.
    And as my colleague mentioned, we traveled, the three of 
us, with Senator Lugar to east Africa this last fall and saw 
for ourselves anthrax being stored in a regular veterinary 
laboratory with hardly any security. So that nexus between 
terrorism and the materials is of great concern to us.
    On your point about biosurveillance and just preparedness 
for such attacks, time really is everything. And whether it is 
detection to know that an attack has occurred, if you don't 
know about it until people are symptomatic and start showing up 
in hospitals, your ability to treat has significantly declined.
    We are better positioned with antibiotics in our National 
Stockpile, and of course, the force is vaccinated against 
anthrax. But we need to do everything we can to reduce the 
times to use our environmental and medical diagnostics, to 
quickly and accurately become aware of an attack and get early 
warning, but also in the event of an attack, to deliver medical 
countermeasures in time to save lives because it really is the 
case where hours matter. And with DARPA [the Defense Advanced 
Research Projects Agency] and some of the efforts in the Chem-
Bio Defense S&T program, we are going to be investing in 
presymptomatic diagnostics that will allow us to know even 
before somebody is showing symptoms that they have been exposed 
to a dangerous agent like anthrax.
    Mr. Langevin. I guess my question, though, is on airborne 
surveillance systems that we have take days right now between 
the time something is detected and tested. That is too long for 
to administer prophylactic antibiotics. You have to get it into 
someone within the first 24 to 48 hours. Or by the time people 
start showing symptoms, it is too late. So what I want to know 
is, how close are we to having that real-time airborne 
biosurveillance system in place?
    Secretary Weber. In terms of the domestic capability and I 
believe in 30 of our urban areas, the BioWatch program of the 
Department of Homeland Security is developing its next 
generation that will have automated detection capability. Right 
now, the air samplers have to be taken back to a laboratory for 
analysis, and clearly, we can't afford to lose that time. But I 
understand they are fairly close to achieving a capability to 
have that real-time surveillance.
    But I also want to emphasize the domestic biosurveillance 
is extremely important, but so is global biosurveillance. And 
the Department of Defense has a network of overseas 
laboratories around the world that help us provide an early 
warning system on a global basis, including in countries where 
some of these rare diseases are endemic. And so we have to look 
at it in terms of protecting our own urban areas, but also, it 
has to be a global approach to be effective, given how quickly 
an H1N1, whether it was mild form of the virus, it showed how 
quickly these self-spreading contagious diseases can move 
around the world.
    Secretary Weber. If Mexico had had a bio-surveillance 
system, perhaps H1N1 could have been isolated and contained 
within that part of Mexico where it originated.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Thornberry. Mr. Myers, it has been brought up several 
times, the budget ups and downs with your organization. I want 
to understand what--there was a substantial increase in the 
request last year. This committee authorized that. It has not 
been appropriated. What would you have done or would you do 
with that extra money that you are not doing now with a 
flatline 2010 level?
    Mr. Myers. A number of things.
    First of all, during the preceding decade, as Mr. Handelman 
explained, we faced a flatline budget. We took on a number of 
different additional mission areas, and we went ahead and 
funded that from within, so we did not receive additional funds 
to take on those new mission areas. And, as a result, we had to 
make some very, very difficult decisions. Some of that is in 
terms of our infrastructure, information technology 
capabilities, and the like. So the fiscal year '11 request 
helps us fix some of those problems that we incurred.
    In addition to that, the fiscal year '11 request gave us 
some specific capabilities to move out with strong support for 
the combat and the commanders, specifically, our ability to 
help detect nuclear radiological threats.
    In addition, specific efforts, we have talked a lot about 
the lines of defense, moving them as far forward as possible. 
The fiscal year '11 budget request included specific increases 
in our engagement and biological threats in Africa and Asia and 
elsewhere, as well as the Nunn-Lugar program's role in the 
global nuclear lock-down effort, our efforts to eliminate 
potential threats by securing and making them more safe.
    I would say, on a macro level, that 17\1/2\ percent, in 
terms of making sure that we have the tools to serve the 
warfighter, what it really did was it looked at each line of 
defense that we have erected between the threat and the 
American people and made substantial improvements to each one. 
I would be happy to share some of the details of that with the 
subcommittee, but just in terms of the overall view, at the 
source was a large part of it.
    Detection was another large part of it. Interdiction, it 
significantly increased the special relationship we have with 
Special Operations Command and the tools that we work with them 
on.
    And also, quite frankly, it helped us develop the 
consequence management, the forensic tools. If we are able, as 
Mr. Weber said, in terms of identifying the threat before it 
happens--unfortunately, if an event were to occur, the quicker 
we are able to identify where that threat came from and who was 
responsible, the quicker we are able to respond. And if we are 
able to do that with a high level of effectiveness, we will be 
able to deter perhaps some of those who would otherwise attack.
    So, again, that request was across the board, sir.
    Mr. Thornberry. Okay. Well, I think we will obviously need 
to be in touch once we see what happens finally with fiscal 
year '11, to analyze then your request for fiscal year '12 to 
see how it is changed. And it is a very difficult situation for 
everybody to be in, there is no question. And so we want to 
look at that again.
    Let me ask you one other thing. You talked earlier about 
your R&D efforts. Talk to me just a little bit, if you would, 
about how you coordinate that with lots of other R&D efforts. 
We had a whole hearing with all the services S&T folks and 
DARPA recently where that was a major thing we talked about, is 
how do you coordinate all of this, and so you are another 
player in that R&D arena.
    Mr. Myers. Yes, sir. Thank you.
    The participants in the hearing you referenced we work very 
closely with, Assistant Secretary Lemnios, research and 
engineering, as well as Regina Dugan, the director of DARPA. 
They are very close relationships.
    Mr. Lemnios provides us with the guidance in terms of 
apportioning our resources in terms of basic research, where to 
really focus a lot of our efforts. We coordinate very closely 
with DARPA to ensure that we are working in similar lanes, if 
you will, in terms of towards common goals, but that we each 
have a role to play. I work with her quite a bit, and it is a 
good working relationship.
    In addition to that, our research and development is guided 
in great part by the requirements that we receive from the 
services, from the Secretary, from the joint staff, and the 
like; and we utilize those as the basis for our commitment of 
funding in various areas.
    Mr. Thornberry. It seems to me I am sure there is some 
coordination with the national laboratories. When you start 
just thinking through the different organizations in the 
government who do some of this, it is a lot.
    Mr. Myers. Sir, let me give you an example. One of them 
would be specifically increasing our capabilities in terms of 
verification technologies, the technologies that we would have 
to verify compliance with arms control treaties. In that case, 
you have the Department of State, the Bureau of Verification, 
Assistant Secretary Gottemoeller. You also have NNSA in 
conjunction with the national labs, and you also have an effort 
at the Defense Threat Reduction Agency. And so you have these 
three parties, plus the labs.
    And we meet regularly. In fact, Assistant Secretary 
Gottemoeller hosted a large roundtable for all the partners to 
really come in and identify goals, identify paths to those 
goals. What are the limitations? What are the conditions that, 
A, they might be used in, B, they might be transported or, C, 
what kind of technologies are we talking about? So, A, we have 
a common set of goals that we are all working towards but that 
we all understand the paths and ensure that they are 
complementary of each other of.
    And obviously, our friends at the NNSA have a tremendous 
relationship and resource with the national labs, but DTRA is 
also very pleased. We do an awful lot of contracting work with 
the laboratories. And, again, we work very hard to deconflict 
those contracts and those efforts with our other government 
partners.
    Mr. Thornberry. General, you talked in your statement and 
in your oral summary about nontraditional agents. Can you give 
me an example of the sorts of things--because, again, it seems 
to me that it could be a wide universe that you would research. 
And so what sorts of things are you working on?
    General Scarbrough. Sir, nontraditional agents are, as I 
explained in my oral, are things outside of the chemical 
warfare, biological warfare convention. I really can't go in 
open session here and elaborate, because I would breach 
security rather quickly to talk about specific areas, but I am 
more than happy to----
    Mr. Thornberry. And I appreciate that. I presume that the 
areas you work on would be informed by the Intelligence 
Community on what to pursue.
    General Scarbrough. Yes, very much so, sir; and we try to 
develop capabilities quickly around those.
    If I could, if I may, sir, one other thing. I just want to 
take this opportunity to correct the record. Earlier, I 
indicated in my response to Mr. Gibson that the Strategic 
National Stockpile is managed by DHS, Department of Homeland 
Security. It is managed by the Department of Health and Human 
Services, not DHS.
    Mr. Thornberry. Thank you. If I could switch a little bit 
into the broader-strategy-like questions, particularly 
cooperative threat reduction, we are still spending money to do 
things in Russia that a lot of folks might say they ought to be 
doing for themselves at this stage. One of the first trips I 
took when I got to Congress was to Ukraine and Russia looking 
at some of those efforts, which at that time was absolutely 
critical, it seems to me, and very important work. But why are 
we still doing that?
    Mr. Handelman. Mr. Chairman, it is an excellent question.
    Let me explain a couple of things about the process.
    First of all, in general, they ask; we don't offer. We 
don't always say yes. This is very much a process of looking at 
what they have that needs to be secured or eliminated and what 
matters most to us. One of the problems we have in evaluating 
these requests is that, you know, Russia is back on its feet 
economically. The way in which the country handles all of its 
affairs in its different regions is not quite as consistent as 
certainly we do here in the United States.
    So just for example, if we want to have 100-percent 
confidence that a mobile missile launcher has in fact been 
completely eliminated, whether it is pursuant to a treaty or, 
you know, some other reason that it is being taken out of 
service, one of the things we think about is that if we can be 
part of the process of eliminating it, that gives us that 100-
percent confidence.
    The other thing that I would say about nonproliferation 
with the cooperation with the Russians is that it has been one 
of the few areas in a relationship that certainly has its peaks 
and valleys that has been consistent. Cooperation that we have 
from the Russian ministry of defense continues to be very 
straightforward. The same with the atomic energy ministry, 
Rosatom.
    Russia has played an important role I think in sort of the 
coalition of the willing on nuclear security initiatives that 
were started under the Bush administration and continued now. I 
am not saying that the Nunn-Lugar program somehow purchases 
that goodwill, but it is the foundation of a nonproliferation 
relationship we have with the Russians that has endured.
    Mr. Thornberry. Well, I realize that the dollars we are 
talking about now are not enormous like--compared with the 
money we have spent before, and I appreciate that. But I still 
get the sense maybe we are being asked to pay for things that 
they could and should be doing for themselves. But that is, you 
know----
    But let me expand. I was very interested in y'all's trip 
with Senator Lugar to Africa and where all that is leading. Can 
you give me some idea of what you see the role of the 
Department of Defense is in that greater security over 
potential biological pathogens, whether it was in the countries 
you mentioned or beyond that? Can you flesh that out a little 
bit? Again, DOD's role versus others. And give me kind of a 
vision of where that is heading.
    Mr. Handelman. Sure. Let me start. Of course, my colleagues 
can amplify.
    I mentioned in my opening remarks the point that the 
Department of Defense and, to some extent, the Department of 
State are the only two departments in a position to look at 
biosecurity internationally from a national security 
perspective. So you are familiar, I think, with the biosecurity 
work that was done in the former Soviet states. The model 
there, or at least the point of departure, was that there had 
been a very complex and significant bioweapons program complex, 
and the foundation of the work there was eliminating 
infrastructure and other things that existed.
    So looking out in a place like Africa or other regions, 
obviously, you know, they are not bioweapons programs. There 
are endemic diseases. There is some science capacity. They are 
not necessarily evidence of terrorist organizations in any 
particular place at any particular time. But, frankly, our goal 
is to get ahead of the potential presence of terrorist 
organizations, and we think a lot about regions that have 
trouble with securing their own borders. So that is sort of the 
strategic framework.
    Why Africa? Well, to tell you the truth, one reason was 
that there already is a significant international and U.S. 
public health presence there, and our view was this is a place 
to partner with other U.S. agencies. I am thinking of the CDC 
that has been in Africa for years, a little more recently the 
PEPFAR [President's Emergency Plan For AIDS Relief] program.
    So the point is not that the Department of Defense is 
coming in and, you know, parachuting in and taking over. Far 
from it. In fact, depending on what the particular type of 
activity may be, whether it is just providing basic physical 
security for a laboratory or helping foreign scientists and 
laboratory workers improve their laboratory security practices 
or working on disease surveillance, it could be that we 
actually work through the CDC or other agencies. And it is not 
that they are our subcontractors. It is that they are on the 
ground and we don't need to duplicate what they are doing.
    So that is an example of sort of the nuts and bolts.
    Mr. Thornberry. I would appreciate any comments. But, also, 
is there any money in this budget request in this effort--and, 
if so, to do what--for fiscal year '12?
    Mr. Handelman. For fiscal year '12, yeah. Indeed. Off the 
top of my head, I am not sure what it is, but it would be to 
establish some of these laboratory relationships. It goes in 
the broader rubric of biosurveillance.
    Mr. Myers. Yes, sir. The fiscal year '11 request for the 
Nunn-Lugar program, overall, was $522 million. That included 
specific requests for bioengagement, Africa, Asia, Pakistan, 
Afghanistan, Iraq, places such as that.
    And the fiscal year '12 request is a little bit smaller 
than that at about 508, but, again, reflects a large component 
of that is biological, the cooperative biological engagement 
program, amplifying and taking advantage of the relationships 
we are able to build in Africa and elsewhere and look to expand 
those to other areas as well.
    Mr. Thornberry. Well, I presume that the more you engage, 
the more you will find to do. I mean, that is what happened 
with Russia. You find greater gaps, greater vulnerabilities, 
places that need security, and then we will be asked to help 
provide that security around various pathogens. I presume that 
it is going to grow.
    Mr. Handelman. Well, Mr. Chairman, let me give you an 
example.
    The bottomless pit for U.S. assistance is certainly not 
something that we want our nonproliferation programs to become, 
and I understand the point you are trying to make. But let me 
give you an example of a situation with Russia where we had 
lots of requests but we prioritized what we thought would have 
the biggest bang for the U.S. buck and what addressed the most 
troubling threat, and it is the chemical weapons elimination 
facility at Shchuchye. They had chemical weapons depots across 
Siberia. And I think you are familiar with this one. This one 
was not blister agent. It was nerve agent. And it was not bulk 
storage. It was, I think, 2.1 million artillery shells and 
rockets. So it is the most dangerous stuff in its most 
proliferable form. And with a minor, I think, two minor 
exceptions, that really has been the core of our chemical 
weapons elimination program with the Russians.
    So the applicable point I am making to biosecurity in 
Africa or anywhere else is that I am sure you are right. Once 
our new partners get familiar with how we work we will get lots 
of requests. It doesn't mean we are going to say yes to all of 
them.
    Mr. Myers. Mr. Chairman, I would like to add one quick 
point, if I may. I think it is also important that we scope the 
size of some of these challenges we are dealing with. When we 
are talking about the biological programs and efforts of the 
former Soviet Union we are talking about an absolutely massive 
infrastructure, numerous facilities across the country. And 
those are expensive undertakings.
    When we are looking at places like the countries that the 
three of us visited with Senator Lugar, we are talking about 
individual facilities that don't quite have that same 
infrastructure, if you will. I think the scope and the cost of 
what we are talking about are a completely different scale than 
those that we were talking about in the FSU [former Soviet 
Union], and I think a fraction of the money we spent on the 
threats we dealt with in the former Soviet Union will have 
tremendous impacts on these facilities.
    And, as Mr. Handelman said, we get requests from these 
governments on a number of different levels. And the three 
entities--Policy, NCB, as well as the Defense Threat Reduction 
Agency--work very closely together to prioritize and identify 
where we are going to make the biggest impact to benefit U.S. 
national security.
    Mr. Handelman. I might add the State Department is also 
part of that dialogue.
    Mr. Thornberry. Well, I think this is very important work, 
and I am very supportive of expanding it. I think, as you heard 
from some of my colleagues earlier today, we are always going 
to be interested in how government agencies coordinate 
together, and you have just highlighted the importance of that 
in this particular instance. But I am very sympathetic with the 
idea that some better security around some of these pathogens 
is a very important goal for our security as well as for many 
others. I just want us, as far as DOD is involved, to 
understand what is involved and as well as the dollars that are 
being asked.
    I think we have worn everybody else out. Again, I 
appreciate y'all's patience in being here, waiting on votes and 
so forth, and answering our questions.
    And, with that, the hearing stands adjourned.
    [Whereupon, at 2:38 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 11, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 11, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5466.001
    
    [GRAPHIC] [TIFF OMITTED] T5466.002
    
    [GRAPHIC] [TIFF OMITTED] T5466.063
    
    [GRAPHIC] [TIFF OMITTED] T5466.003
    
    [GRAPHIC] [TIFF OMITTED] T5466.004
    
    [GRAPHIC] [TIFF OMITTED] T5466.005
    
    [GRAPHIC] [TIFF OMITTED] T5466.006
    
    [GRAPHIC] [TIFF OMITTED] T5466.007
    
    [GRAPHIC] [TIFF OMITTED] T5466.008
    
    [GRAPHIC] [TIFF OMITTED] T5466.009
    
    [GRAPHIC] [TIFF OMITTED] T5466.010
    
    [GRAPHIC] [TIFF OMITTED] T5466.011
    
    [GRAPHIC] [TIFF OMITTED] T5466.012
    
    [GRAPHIC] [TIFF OMITTED] T5466.013
    
    [GRAPHIC] [TIFF OMITTED] T5466.014
    
    [GRAPHIC] [TIFF OMITTED] T5466.015
    
    [GRAPHIC] [TIFF OMITTED] T5466.016
    
    [GRAPHIC] [TIFF OMITTED] T5466.017
    
    [GRAPHIC] [TIFF OMITTED] T5466.018
    
    [GRAPHIC] [TIFF OMITTED] T5466.019
    
    [GRAPHIC] [TIFF OMITTED] T5466.020
    
    [GRAPHIC] [TIFF OMITTED] T5466.021
    
    [GRAPHIC] [TIFF OMITTED] T5466.022
    
    [GRAPHIC] [TIFF OMITTED] T5466.023
    
    [GRAPHIC] [TIFF OMITTED] T5466.024
    
    [GRAPHIC] [TIFF OMITTED] T5466.025
    
    [GRAPHIC] [TIFF OMITTED] T5466.026
    
    [GRAPHIC] [TIFF OMITTED] T5466.027
    
    [GRAPHIC] [TIFF OMITTED] T5466.028
    
    [GRAPHIC] [TIFF OMITTED] T5466.029
    
    [GRAPHIC] [TIFF OMITTED] T5466.030
    
    [GRAPHIC] [TIFF OMITTED] T5466.031
    
    [GRAPHIC] [TIFF OMITTED] T5466.032
    
    [GRAPHIC] [TIFF OMITTED] T5466.033
    
    [GRAPHIC] [TIFF OMITTED] T5466.034
    
    [GRAPHIC] [TIFF OMITTED] T5466.035
    
    [GRAPHIC] [TIFF OMITTED] T5466.036
    
    [GRAPHIC] [TIFF OMITTED] T5466.037
    
    [GRAPHIC] [TIFF OMITTED] T5466.038
    
    [GRAPHIC] [TIFF OMITTED] T5466.039
    
    [GRAPHIC] [TIFF OMITTED] T5466.040
    
    [GRAPHIC] [TIFF OMITTED] T5466.041
    
    [GRAPHIC] [TIFF OMITTED] T5466.042
    
    [GRAPHIC] [TIFF OMITTED] T5466.043
    
    [GRAPHIC] [TIFF OMITTED] T5466.044
    
    [GRAPHIC] [TIFF OMITTED] T5466.045
    
    [GRAPHIC] [TIFF OMITTED] T5466.046
    
    [GRAPHIC] [TIFF OMITTED] T5466.047
    
    [GRAPHIC] [TIFF OMITTED] T5466.048
    
    [GRAPHIC] [TIFF OMITTED] T5466.049
    
    [GRAPHIC] [TIFF OMITTED] T5466.050
    
    [GRAPHIC] [TIFF OMITTED] T5466.051
    
    [GRAPHIC] [TIFF OMITTED] T5466.052
    
    [GRAPHIC] [TIFF OMITTED] T5466.053
    
    [GRAPHIC] [TIFF OMITTED] T5466.054
    
    [GRAPHIC] [TIFF OMITTED] T5466.055
    
    [GRAPHIC] [TIFF OMITTED] T5466.056
    
    [GRAPHIC] [TIFF OMITTED] T5466.057
    
    [GRAPHIC] [TIFF OMITTED] T5466.058
    
    [GRAPHIC] [TIFF OMITTED] T5466.059
    
    [GRAPHIC] [TIFF OMITTED] T5466.060
    
    [GRAPHIC] [TIFF OMITTED] T5466.061
    
    [GRAPHIC] [TIFF OMITTED] T5466.062
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 11, 2011

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. FRANKS

    Mr. Myers. The purpose served by the Shield Act is of interest to 
the entire American populace considering the potential impact of the 
phenomenology that it is trying to protect against. As highlighted 
within the Shield Act, the Act's purpose is ``to amend the Federal 
Power Act to protect the bulk power system and electric infrastructure 
critical to the defense and well-being of the U.S. against natural and 
manmade EMP threats and vulnerabilities.'' As both a practical and 
authoritative matter, such protection as described within the Act is a 
collaborative effort with the overall responsibility for protecting the 
U.S. electric infrastructure residing with the Department of Homeland 
Security and the Department of Defense (DOD) playing a supporting role. 
Among other things, and in collaboration with other U.S. Government 
entities such as the Department of Energy, the Defense Threat Reduction 
Agency (DTRA) provides technical expertise in relevant phenomenology 
such as nuclear-driven electromagnetic pulse (EMP) and naturally 
occurring geomagnetic storms--both of which have a potentially large 
effect on the bulk-power system and U.S. electric infrastructure. 
Accordingly, as the DOD lead agency for EMP effects and the associated 
military standards established to protect against those effects, DTRA 
conducts research on the magneto hydrodynamic (MHD) E-3 portion of the 
EMP pulse and its late-time effects on DOD systems and critical 
infrastructure. This portion of the EMP spectrum is of interest from 
both a manmade and naturally occurring perspective as the MHD E-3 
produces similar frequency content to that of a geomagnetic storm, 
albeit not quite of the probable level of intensity generated during a 
nuclear blast. As part of its CWMD capability, DTRA maintains an MHD E-
3 testbed that has been used to investigate MHD E-3 phenomology on a 
representative portion of the U.S. power grid. DTRA is also in the 
process of conducting research with the Idaho National Laboratory to 
examine damage to large transformers due to thermal overheating from 
such effects.
    As a matter of institutional responsibility, the Assistant 
Secretary of Defense (Homeland Defense) oversees the Defense Critical 
Infrastructure Program (DCIP) and therefore assists DHS as DHS 
publishes a National Infrastructure Protection Plan (NIPP) to address 
the 18 sectors of the national infrastructure, e.g., electric power 
grid, banking, transportation, telecom, water, pipelines, etc. As such, 
DHS serves as the overall U.S. government lead in collaboration with 
other agencies such as DOE to modernize the electric grid and enhance 
its reliability. [See page 15.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 11, 2011

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. As you know, the GAO has reported that our 
counterproliferation programs need to better align with our strategy. 
Since you deal with the larger policy and strategy issues associated 
with WMD and counterproliferation, can you outline how you plan to 
improve in this area?
    Mr. Handelman. We believe that the most recent authoritative 
strategy statement on Countering WMD, the 2010 Quadrennial Defense 
Review, which highlighted the need to: increase barriers to WMD 
proliferation and use; identify and mitigate emergent WMD threats; 
develop layered and integrated defenses to WMD; and manage WMD Threats 
that emanate from failing or fragile states. We believe these 
priorities have been followed quite closely by programmatic changes to 
enhance measures aimed at better understanding potential threats, 
securing and reducing dangerous materials wherever possible, 
positioning forces to monitor and track lethal agents and materials and 
their means of delivery, and, where relevant, defeat the threats 
themselves.
    To further these ends, the FY11 Defense Appropriation provides 
funding for WMD Elimination ($99.3M), enhanced nuclear forensics 
($109.2M), R&D for non-traditional agents ($300M) and biological threat 
reduction ($300M). We continue to work closely with the Under Secretary 
of Defense for Acquisitions, Technology & Logistics (AT&L) to ensure 
these policy and strategy issues align with programming.
    Mr. Thornberry. The 2002 National Strategy to Combat Weapons of 
Mass Destruction outlines three pillars for dealing with WMD: 
nonproliferation, counterproliferation, and consequence management. Are 
these pillars effective in providing a strategic framework for U.S. 
Combating WMD activities? Is the current DOD organization effective in 
responding to the nonproliferation, counterproliferation, and 
consequence management pillars? Within which of these pillars do our 
greatest challenges lie?
    Mr. Handelman. The three pillars for WMD provide an effective 
framework for managing DOD's countering WMD activities to prevent 
proliferation and use of WMD, means of delivery, and related materials, 
increase force protection, and prepare to respond to the range of WMD 
threats.
    Each pillar of CWMD contains unique challenges. However, our 
greatest challenge is how we coordinate activities across the CWMD 
mission space to create a truly layered defense. As stated in the 2010 
QDR, an integrated, layered defense is essential to preventing an 
attack before it occurs, through efforts such as securing material at 
its source or ensuring robust interdiction capabilities as part of UN 
Security Council Resolution enforcement, as well as responding to an 
attack should prevention fail. Therefore, efforts to cut across pillars 
and examine issues in a holistic manner are of primary importance to 
the countering WMD mission.
    Mr. Thornberry. In your written testimony, you discuss the 
partnership between the U.S. government and large pharmaceutical 
companies in developing biological countermeasures. Can you provide 
more detail about this partnership and outline some of the challenges?
    Mr. Weber. DOD will enter into a cooperative partnership with 
industry, including both experienced pharmaceutical companies and 
biotechnology innovators, for the advanced development and 
manufacturing of medical countermeasures (MCMs). This is the Medical 
Countermeasures Initiative (MCMI).
    The events of the 2009 H1N1 pandemic, along with the ongoing 
development of chemical, biological, radiological, and nuclear (CBRN) 
MCMs, revealed major challenges remaining in advanced development and 
domestic manufacturing capacity when facing an emerging disease. These 
challenges require new approaches to counter anticipated and 
unanticipated attacks, as well as natural disasters or naturally 
occurring infectious-disease threats. The most evident challenge was 
the ability to meet demand for MCMs during an outbreak. Current 
capabilities would not provide sufficient countermeasures to the armed 
forces or to the Nation as a whole in an emergency situation.
    DOD will address this gap by establishing the MCMI to provide agile 
and flexible advanced development and manufacturing capabilities to 
support the development, licensure, and production of MCMs for U.S. 
military forces and the Nation. The MCMI will also support science and 
technology efforts to develop next-generation MCM-platform 
technologies, manufacturing systems, and regulatory science 
technologies.
    DOD's need for MCMs is variable in quantity, ranging from thousands 
of doses to several million. The potential spectrum of exposure, from 
CBRN threats to emerging infectious diseases, is diverse. Although the 
DOD dose requirements are relatively small, there are still great risks 
as each MCM candidate navigates product development (e.g., product and 
manufacturing scale-up, pivotal animal studies, and clinical studies) 
and regulatory pathways-including compliance uncertainty in the Federal 
Drug Administration policy on animal testing in the development of 
medical countermeasures.
    By focusing on advanced development and manufacturing technologies, 
while HHS focuses on manufacturing services on a large scale (tens of 
millions of doses), DOD will be involved in protecting national 
security by first protecting the members of the U.S. Armed Forces.
    Mr. Thornberry. What is currently being done in the way of 
consequence management planning and preparedness against CBRNE attacks 
both abroad and within the U.S.?
    Mr. Weber. Within the United States, the Department of Homeland 
Security (DHS) is the lead Federal agency, and DOD provides support. 
The Joint Staff and the Office of the Under Secretary of Defense for 
Policy (OUSD(P)) have responsibility for planning and preparedness for 
both domestic and foreign consequence-management operations. Overseas, 
the Department of State (DOS) is the lead Federal agency, and DOD 
provides support. Each Combatant Command is tasked to develop 
supporting plans for consequence management activities within their 
area of responsibility.
    USNORTHCOM has the lead for planning for and executing DOD support 
to consequence management activities within the United States. DOD 
conducted a comprehensive review of its domestic CBRN Response 
enterprise following the 2010 Quadrennial Defense Review (QDR). The 
result is an ongoing two-year effort to increase DOD's lifesaving 
capability within the existing 18,000-person response enterprise. The 
overall change is a shift from centralized Chemical, Biological, 
Radiological, and Nuclear Consequence Management Response Force (CCMRF) 
#2 and #3 to create ten Homeland Response Forces (HRFs) postured to 
respond in 6-12 hours. This new structure will be certified and in 
place by the end of Fiscal Year 2012 (FY12).
    Independent of the CCMRF restructuring, my office recognized the 
need to assist the Combatant Commands with their Foreign Consequence 
Management (FCM) requirements. To that end DTRA will establish the 
Consequence Management Assistance Program (CMAP) in FY12. This program 
will increase the tactical training and operational capabilities of 
targeted partner nations to respond to CBRNE incidents effectively, and 
it will support Combatant Commanders' requirements to assist partner 
nations by building capacity to respond effectively to the use of WMD. 
DTRA is currently coordinating with the Combatant Commanders to 
identify and prioritize partner nations to be assisted. It is also 
working with DOS and the Embassy Country Teams to develop engagement 
plans tailored specifically for these key partner countries. DTRA will 
also partner with industry and subject matter expert organizations to 
develop training modules, procure response equipment through the 
Foreign Military Sales (FMS) program, and conduct hands-on training in 
support of the Combatant Commands' objectives and country-engagement 
plans. The desired end state is a cadre of regionally based leader 
nations, which have effective consequence-management-response 
capabilities, and which are able to respond to assist themselves and 
regional partners during the critical first 96 hours following a CBRN 
incident.
    DTRA is also supporting the DOD-wide effort to assist Japan in its 
response to the ongoing crises associated with the earthquake, tsunami, 
and nuclear facilities.
    Mr. Thornberry. How concerned are we with the proliferation of 
dual-use technologies that could potentially be used for WMD 
development activities? Do we have good tracking mechanisms in place, 
and what are some of your programmatic and policy challenges in this 
area?
    Mr. Weber. With rapid technological advances around the world, the 
task of discerning illicit activities from legitimate dual-use 
activities grows more complex. Our key programmatic challenge in 
monitoring and controlling proliferation is the development of 
technology to distinguish dual-use technologies for civilian use from 
those intended for weapons development.
    New technology advances are critical to our ability to detect and 
assess potential WMD proliferation. For nuclear weapons, this involves 
assessing uranium-enrichment facilities to verify that the degree of 
enrichment is consistent with power and medical-isotope reactor 
operation and not with nuclear-weapons production. We must also have 
appropriate technology to monitor and control the nuclear-fuel cycle, 
limiting the ability of potential proliferant nations to separate 
plutonium for weapons from reactor fuel.
    The revolution in synthetic biology and bioengineering requires new 
monitoring techniques to discriminate precursors for dual-use 
biological materials (e.g., vaccines) from bioagents. Emerging chemical 
threats also place great emphasis on the ability to identify and detect 
possible proliferant material. Developing analytic technology for life-
cycle monitoring of nuclear, biological, and chemical weapons supports 
the President's non-proliferation agenda and is consistent with the 
purposes of applicable international agreements, including the Fissile 
Material Cut-off Treaty, the Biological Weapons Convention, and the 
Chemical Weapons Convention.
    Mr. Thornberry. In your written testimony you discuss the threat 
posed by Al Qaeda and their determination to acquire weapons of mass 
destruction. In terms of our ability to plan and prepare for such a 
threat, do we have a clear understanding of Al Qaeda's technical 
abilities, or relationships with state actors that may transfer 
technology? What are you most concerned with? Please respond via 
classified channels if needed.
    Mr. Myers. [The information referred to is classified and retained 
in the committee files.]
    Mr. Thornberry. Can you discuss how recent changes in the Middle 
East are impacting DTRA's operations and planning? Have you received 
additional requests for support from CENTCOM? What are some of your 
largest concerns?
    Mr. Myers. The Defense Threat Reduction Agency's (DTRA) operations 
and plans have been affected by recent events in the Middle East. We've 
had to curtail one mission support element's travel to Bahrain and we 
have increased our travel coordination with USCENTCOM to ensure the 
safety of personnel traveling to the region. To date, we have not 
changed any of our plans to engage and work with partner nations in the 
Middle East, and we will coordinate with our interagency partners 
before changing any program plans.
    In the last month, DTRA and the USSTRATCOM Center for Combating 
Weapons of Mass Destruction (WMD) surged their capabilities to support 
Operation ODYSSEY DAWN. We have been providing USAFRICOM and its 
subordinate commands with advice and assistance in its planning and 
conduct of the operation. DTRA's liaison to the USCENTCOM headquarters 
participates in all coordination meetings to ensure USCENTCOM's 
operational requirements are considered and met.
    We have not received any additional requests for support from 
USCENTCOM, but remain acutely interested in what is going on in the 
region. We are closely observing the evolving social and political 
dynamics in the region, and are maintaining our effective working 
relationship with USCENTCOM in order to assist should the need arise.
    DTRA's concerns extend to all aspects of chemical, biological, 
radiological, nuclear, or high-yield explosive impacts, including 
mitigation of toxic industrial chemicals or hazardous materials, which 
might affect U.S. personnel or interests. Our primary concern is the 
acquisition by terrorist groups of weapons, materials, and know-how.
    Mr. Thornberry. What are some of your unfunded requirements? Where 
are your largest gaps in funding?
    Mr. Myers. We fully support the Fiscal Year (FY) 2012 budget 
request, and DTRA has no unfunded requirements.
    If additional funding was to be provided, I would recommend 
applying it to improved technical reachback support for the Combatant 
Commanders, the Office of the Secretary of Defense (OSD), National 
Guard WMD Civil Support teams, and others; accelerated development of 
WMD detection and interdiction technologies and their integration into 
operational concepts; and accelerated development of hardened-target 
and WMD-defeat capabilities.
    Mr. Thornberry. Since our forces have been so focused on 
counterinsurgency in Iraq and Afghanistan, are you concerned that some 
of the specialized and highly technical counterproliferations skills 
and capabilities have eroded in the U.S. government?
    Mr. Myers. Yes. There are continuing concerns about the future 
availability of a cadre of technical experts in the area of nuclear 
weapons. These were identified in the ``Report of the Commission on 
Maintaining United States Nuclear Weapons Expertise'' to the Congress 
and Secretary of Energy Pursuant to the National Defense Authorization 
Acts of 1997 and 1998 published March 1, 1999 for the Department of 
Energy (DOE), and in the ``Report of the Defense Science Board Task 
Force on Nuclear Deterrence Skills,'' published in September 2008 by 
the Office of the Under Secretary of Defense for Acquisition, 
Technology and Logistics for DOD.
    The demands of ongoing contingency operations in Afghanistan and 
Iraq have resulted in particularly officers spending large portions of 
their career performing functions that are not combating weapons of 
mass destruction (CWMD). Although they are providing critical 
leadership on the battlefield conducting combat patrols or planning 
counter-insurgency operations, they are not honing technical skills 
essential to this mission space. Since most officers entering the 
military today do not possess technical degrees in sciences such as 
chemistry and biology, the need for self-study or formal education 
provided by the military departments is essential. When officers are 
afforded the opportunity to attend schools, general Professional 
Military Education training does not include CWMD-specific coursework. 
The technical CWMD training that is offered at institutions such as the 
Naval Post Graduate School and the Defense Nuclear Weapons School are 
often difficult to fill because officers are simply not available to 
attend due to ongoing deployments.
    Mr. Thornberry. By which mechanisms is the intelligence community 
coordinating and sharing information pertaining to CBRNE threats with 
the appropriate officials in the Department of Defense and other key 
U.S. agencies?
    Mr. Myers. [The information referred to is classified and retained 
in the committee files.]
    Mr. Thornberry. In your written testimony you talk about the threat 
of non-traditional agents (NTAs) and how your program is working to 
mitigate this threat. Can you outline for us some of your concerns in 
this area? Can NTAs be exploited by non-state actors or transnational 
threats such as Al Qaeda? Please respond via classified channels if 
necessary.
    General Scarbrough. [The information referred to is classified and 
retained in the committee files.]
    Mr. Thornberry. In your written testimony you outline several DOD 
Efficiencies that you have implemented including the reduction of 
thirty-one full-time positions and the reduction of contractor support. 
Do you expect any gaps or limitations as a result of these drawdowns?
    General Scarbrough. The Joint Program for Chemical and Biological 
Defense (JPEO-CBD) does not anticipate any gaps or limitations as a 
result of the actions described in the written testimony. The JPEO-CBD 
views the consolidation of acquisition programs and reduction to 
contractor support as described in the prepared statement as 
commonsense efforts to operate more efficiently and cost-effectively.
    Mr. Thornberry. What are some of your unfunded requirements? Where 
are your largest gaps in funding?
    General Scarbrough. We fully support the Fiscal Year (FY) 2012 
budget request. If provided with additional funds, the Joint Program 
Executive Office for Chemical and Biological Defense (JPEO-CBD) would 
apply them (in order of priority) to:

    1. Accelerating progress in our current priority areas:

    <bullet>  Medical Countermeasures;
    <bullet>  Biosurveillance, including improvements to information 
technology and diagnostics capabilities; and
    <bullet>  Defense against Nontraditional Agents (NTA).
    2. Medical countermeasures for radiological threats.
    3. Hazard mitigation for chemical, biological, radiological, and 
nuclear (CBRN) threats.
    4. Standoff detection capabilities.
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER

    Mr. Ruppersberger. Aberdeen Proving Ground in my district is home 
to the Army Research Lab, Army Chemical Material Agency and the Medical 
Research Institute of Chemical Defense. There is tremendous growth at 
APG because of the 2005 BRAC. Buildings are going up all over APG, but 
there are old, dated buildings which must be heated and cooled because 
of the chemicals within them. The Army does a good job of putting up 
building, but I haven't seen any progress on demolition of buildings. 
Is demolition of building adequately funded in the Army FY12 budget and 
the Future Year Defense Plan?
    General Scarbrough. I referred your question to the office with 
appropriate jurisdiction, the Aberdeen Proving Ground (APG) Garrison 
Commander, who provides the following response:

          With fiscal year 2008 and fiscal year 2009 demolition 
        funding, APG has demolished 53 facilities, with 24 more to be 
        demolished using fiscal year 2009 funding. There was no fiscal 
        year 2010 demolition funding provided to APG. For fiscal year 
        2011, there is tentatively $1.03M for the demolition of 25 
        facilities designated for APG. This money has not yet been 
        allocated. For fiscal years 2011-2017, APG has a $85.8M plan to 
        demolish 188 additional facilities. This funding has not yet 
        been programmed.

    Mr. Ruppersberger. Our National Guard is no longer supplemental. 
They are an integral part of today's fighting force. It is important to 
provide the National Guard with the equipment they need, just as the 
regular Army. What is the funding and fielding plan for the National 
Guard's Chemical Biological Protective Shelter which is currently on 
the Top 25 Unfunded List?
    General Scarbrough.
    Funding

    The Fiscal Year (FY) 2012 DOD Budget Request outlines current and 
planned procurement of Chemical and Biological Protective Shelters 
(CBPS) systems (FY10 through FY16). Current plans indicate Procurement, 
Defense-Wide funds would buy CBPS systems for both the Army National 
Guard (ARNG) and the Army Active Component while Other Procurement, 
Army funds would buy CBPS systems for the Army National Guard (ARNG).

    Procurement, Defense Wide

    FY 2010--$10.6M for 7 systems
    FY 2011--$19.7M for 12 systems
    FY 2012--$6.0M for 2 systems
    FY 2013--$6.0M for 2 systems
    FY 2014--$19.7M for 21 systems
    FY 2015--$22.6M for 26 systems
    FY 2016--$23.8M for 25 systems

    Other Procurement, Army

    FY 2016--$50.3M

    It is important to note that the ARNG can also receive equipment 
through the National Guard and Reserve Equipment Account (NGREA).

    Fielding

    ARNG and Army Active Component units are fielded CBPS systems 
depending upon the Headquarters, Department of the Army Master Priority 
List and Basis of Issue Plan. The List and Plan are not complete, so 
numbers may change. The draft Headquarters Department of the Army 
Master Priority List currently identifies approximately 439 CBPS 
systems for the ARNG. However, achieving that total depends on the 
availability of funds, Army priorities, and DoD priorities.

    Program Status

    The CBPS program has been transitioning from a High Mobility 
Multipurpose Wheeled Vehicle (HMMWV) platform to a Medium Tactical 
Vehicle (MTV) platform. With the inability to add the required armor 
protection due to weight limitations, the Army decided to integrate the 
CBPS mission module onto the MTV platform. The Chemical and Biological 
Defense Program recently completed first-article testing, and 
production of the integrated system is scheduled to begin in FY12. The 
ARNG is currently planning to procure additional systems using NGREA 
funding once production begins.
    Mr. Ruppersberger. The Army Medical Research Institute of Chemical 
Defense at Aberdeen Proving Ground uses live monkeys to show the 
effects of patients that have been exposed to chemical or nerve agents 
and medical trainees observe these effects. It is my understanding that 
the monkeys are an ineffective way to treat patients as they do not 
show the same symptoms as humans and that the human simulators that are 
used in addition to this would provide accurate training if only those 
were used. In addition, over the next ten years, the use of only human 
simulators would provide a cost savings for the Army. Is there a reason 
why the monkeys are still used for this purpose if human simulators can 
provide more accurate training?
    General Scarbrough. I have referred this question to the office 
with appropriate jurisdiction, the U.S. Army Medical Department 
(AMEDD), which provides the following response:

    ``The U.S. Army Medical Research Institute of Chemical Defense 
(USAMRICD) is dedicated to employing the best possible training 
techniques to prepare medical-care providers to treat battlefield 
injuries while minimizing the use of live animals. The Field--and 
Medical--Management of Chemical and Biological Casualties courses make 
extensive use of manikins, computer-based training, and other training 
aids to maximize training effectiveness.
    The anesthetized African green nonhuman primate (NHP) model is 
currently the best model for simulating a cholinergic crisis in humans. 
In the live-animal exercise, physostigmine, a short-acting, FDA-
approved medication for humans, is used to simulate effects of a nerve-
agent exposure in fully anesthetized animals; actual nerve agent is not 
administered. The use of physostigmine in this species produces effects 
that are identical to the effects that occur in humans after exposure 
to nerve agents. After administering physostigmine, students observe 
changes that occur in the animal's muscle tone, respirations, mucous 
membrane color, salivation, heart rate, and body temperature. Students 
provide supportive care and administer antidotes. Following treatment, 
they observe the animal's recovery from a cholinergic crisis. The 
animals recover without incident and are treated humanely at all times.
    USAMRICD is committed to continually evaluating and actively 
seeking non-animal alternatives that may provide equivalent or superior 
training experiences. USAMRICD uses a variety of different manikins and 
continually collaborates with the manufacturer to improve the realism 
of these simulators. However, even the most advanced of the currently 
available manikins are incapable of adequately modeling the range of 
clinical signs or the individually variable response to nerve-agent 
exposure and treatment seen in live patients, both human and animal.''

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
